<html>
<title> - PRIORITIZING CHEMICALS FOR SAFETY DETERMINATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
            PRIORITIZING CHEMICALS FOR SAFETY DETERMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2009

                               __________

                           Serial No. 111-80


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-851                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JANICE D. SCHAKOWSKY, Illinois       CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN P. SARBANES, Maryland           RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, Jr., New Jersey       GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE L. BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. George Radanovich, a Representative in Congress from the 
  State of California, opening statement.........................     2
    Prepared statement...........................................     5
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     8
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    12
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    13
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    14
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    14
Hon. Christopher S. Murphy, a Representative in Congress from the 
  State of Connecticut, opening statement........................    16
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, opening statement...............................    16
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    17
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    18
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, prepared statement....................    20
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    82
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    84

                               Witnesses

Steve Owens, Assistant Administrator, Office of Prevention, 
  Pesticides and Toxic Substances, U.S. Environmental Protection 
  Agency.........................................................    22
    Prepared statement...........................................    25
    Answers to submitted questions...............................    99
Eric Sampson, Director, Division of Laboratory Sciences, National 
  Center for Environmental Health, Centers for Disease Control 
  and Prevention.................................................    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................   112
Daryl Ditz, Senior Policy Advisor, Center for International 
  Environmental Law..............................................    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................   115
Bill Greggs, Consultant, Consumer Specialty Products Association, 
  Grocery Manufacturers Association and Soap and Detergent 
  Association....................................................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   122
Beth Bosley, Consultant, Society of Chemical Manufacturers and 
  Affiliates.....................................................    58
    Prepared statement...........................................    60
    Answers to submitted questions...............................   131

                           Submitted Material

Letter of November 16, 2009, from the American Chemistry Council 
  to the Subcommittee, submitted by Mr. Green....................     9
Statement of the Humane Society of the United States, the 
  Physicians Committee for Responsible Medicine, and the People 
  for the Ethical Treatment of Animals, submitted by Mr. Rush....    87
Statement of the National Petrochemical and Refiners Association, 
  submitted by Mr. Rush..........................................    94


            PRIORITIZING CHEMICALS FOR SAFETY DETERMINATION

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2009

                  House of Representatives,
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:07 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Bobby L. 
Rush [Chairman of the Subcommittee] presiding.
    Members present: Representatives Rush, Schakowsky, 
Sarbanes, Sutton, Green, Matheson, Butterfield, Barrow, Castor, 
Space, DeGette, Dingell, Markey, Radanovich, Pitts, Murphy, 
Gingrey and Scalise.
    Staff present: Michelle Ash, Chief Counsel; Rebecca Brown, 
Fellow; Timothy Robinson, Counsel; Angelle Kwemo, Counsel; 
Aaron Ampaw, CBC Fellow; Will Cusey, Special Assistant; Lindsay 
Vidal, Press Assistant; Matt Eisenberg, Special Assistant; 
Theresa Cederoth, Intern; Shannon Weinberg, Minority Counsel; 
Will Carty, Minority Professional Staff; Brian McCullough, 
Minority Senior Professional Staff; Sam Costello, Minority 
Legislative Assistant; and Jerry Couri, Minority Senior 
Professional Staff.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The subcommittee will come to order.
    This is the Subcommittee on Commerce, Trade, and Consumer 
Protection, and the purpose of today's hearing is to hear from 
various witnesses on the subject of prioritizing chemicals for 
safety determination, and the Chair wants to acknowledge and 
welcome everybody, all the participants and the audience, to 
this very important and timely hearing.
    The Chair now recognizes himself for 5 minutes for the 
purposes of an opening statement.
    The troubling alert that the GAO issued in January 2009 
regarding the Environmental Protection Agency should still echo 
through the 111th Congress. Upon adding EPA oversight of toxic 
chemicals and mixtures to its high-risk series, the GAO stated, 
and I quote, ``EPA's inadequate progress in assessing toxic 
chemicals significantly limits the agency's ability to fulfill 
its mission of protecting human health and the environment.'' 
Given the long-term and adverse impacts that a poor effort to 
reform the TSCA would have on our economy, public health and 
environment, we cannot pretend to have not heard the alarm.
    There is growing evidence that some of these toxic agents 
are linked to serious and chronic health problems as well as to 
environmental pollution and contamination of our food sources, 
our air quality and our waterways.
    I stated at our last TSCA subcommittee hearing in February 
of this year that I intended to conduct and conclude a 
deliberative process that reverses past Congressional inaction 
of reauthorizing TSCA and conducting meaningful oversight of 
the statute's effectiveness. By coming together this morning to 
review the EPA's prioritization practices, we are approaching 
another significant milestone in the above-stated process.
    When TSCA was enacted in 1976, Congress failed to employ 
adequate authority upon the EPA to restrict or ban the use of 
unsafe toxics. Before engaging its enforcement authority under 
Title I, Sections 6 and 9, of TSCA, the EPA would have to meet 
what now appears to have been an insurmountable burden of proof 
for meeting the unreasonable risk to public safety standard.
    Indeed, the courts have construed the EPA's power under 
TSCA so narrowly that it has not acted effectively to ban not a 
one, not a single chemical since 1991, nor has the EPA issued 
testing rules for more than 5 percent of those chemicals that 
appear on the EPA's current Priority Testing List, many of 
which currently lack sufficient safety testing information.
    Even though the EPA has been reluctant to invoke its 
enforcement authority under TSCA, around 22,000 new chemical 
substances have been added since 1979 to the EPA's inventory of 
individual chemicals, which currently totals more than 84,000 
chemicals. As a result, the safety of the vast majority of 
chemical substances which have been placed into the stream of 
commerce has never been adequately reviewed under TSCA.
    One of our tasks today is to consider options for ranking 
chemicals from the most unsafe to human health and the 
environment to the least unsafe to human and to the 
environment. In listening to and questioning the witnesses, we 
should also discuss which parties should bear the obligation of 
providing sufficient data about the properties of chemicals and 
testing those chemicals, how these chemicals and the products 
containing them are used, and when the data that is on hand is 
inadequate and should trigger further testing and assessment.
    Let me extend my deepest thanks to the witnesses who are 
present here. They have come unselfishly give their time, 
expertise and candid viewpoints on this central theme of 
prioritization as it relates to the comprehensive reform of 
TSCA, and I look forward to hearing your testimony.
    And with that, I yield back the balance of my time.
    The Chair now recognizes the ranking member, Mr. 
Radanovich, for the purposes of an opening statement for 5 
minutes.

 OPENING STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman.
    I want to welcome everybody to the committee. I appreciate 
you being here with your input and do appreciate the chairman 
and this deliberative process with a subject that hopefully 
recognizes the complexity of the law, the persons impacted by 
it and the overall impact any reform might have on our Nation's 
manufacturing sector. Based on my experiences with enormous 
negative ramifications from enactment of some well-meaning 
provisions in the toy bill and my continuing concerns about the 
benefits of some of the environmental legislation coming out of 
my home State of California, I remain quite concerned about the 
direction any effort on TSCA might take in the name of reform. 
I am especially concerned that a course of diverse interests 
might be seen to be calling for TSCA reform when in reality 
these stakeholders might be only looking for modest or cosmetic 
changes. We all know that TSCA is a very complex statute and 
that making radical changes to this law could have drastic 
effects on Americans' standard of living. Further, we also know 
that TSCA does not operate in a legal vacuum when it comes to 
regulating chemicals. There are other federal chemical laws 
that deal with specific segments of the American economy, be it 
pharmaceuticals, pesticides, household consumer products and 
workplace safety. Because these and other authorities, Section 
6 of TSCA suggests that its authority should only be used to 
fill other gaps in the law rather than have it gratuitously 
pile on duplicative regulations for its own sake.
    I think our discussion this morning is a helpful one. While 
EPA's Web site claims 83,000 chemicals that have been in 
commerce at some point, there is also broad agreement that the 
number currently in commerce in the United States is 
significantly less than the 83,000 figure. In light of the 
fiscal and resource realities facing the country and the 
agency, prioritization of the highest-risk chemicals first not 
only makes sense but I think it is essential. In prioritizing 
chemicals, though, I think that we should be enormously careful 
not to create overly expansive lists that will be used to 
arbitrarily scare the public without full information about 
actual occurrences, true exposures, possible mitigation 
strategies and how these chemicals fit into the overall risk 
management or reduction strategy.
    While I think prioritization is important, I also want to 
voice my interest in trying to understand the second half of 
the hearing title, which calls for safety determination. The 
Majority's hearing memo calls the existing standard under TSCA 
Section 6 a safety standard, as does EPA's written testimony. 
If that is what to consider it, then it is helpful in putting 
testimony in context since we would be asking questions about 
the existing regulatory standard in TSCA. If the Majority 
considers the safety standard to be something else, we should 
know that too. Without full knowledge of what EPA might be 
prioritizing to or for, our questions will be mostly conjecture 
in search of a mythical legal standard which may or may not 
exist.
    I want to welcome our witnesses and say how much I 
appreciate your being here to give us your perspective. I 
especially want to welcome Mr. Owens from the EPA. I have 
several questions for him about the size and scope of this 
issue and want to make sure that the EPA is neither over- nor 
underestimating the issues at hand as they relate to 
prioritization. Further, I notice that the current EPA is 
scraping the programs of the previous Administration, which is 
something the Bush Administration did not do concerning the 
high productive volume challenge program and I hope solid 
reasons and a deliberative process, not simple politics, were 
at the core of these plans. As President Obama has said before, 
we have to use good ideas regardless of who the author is.
    Mr. Chairman, I want to express my support for protecting 
people from unhealthy exposures to chemicals based on their 
intended use and based on and with sound objective scientific 
research. At the same time, we need to be cognizant that a 
poorly written bill will drive these chemical makers overseas 
quickly, leaving our high standards for worker safety and 
environment protection in the rearview mirror and compromising 
any serious effect to police quality control. With 10.2 percent 
national unemployment, 11.9 percent unemployment in the 
domestic manufacturing sector and the U.S. Bureau of Labor 
Statistics projecting a 16 percent decrease in wages and 
employment in the United States chemical manufacturing sector, 
we can't be cavalier about what this bill means and what it can 
do simply because it sounds like a good idea.
    Thank you again, Mr. Chairman, and I look forward to 
working on this matter with you.
    [The prepared statement of Mr. Radanovich follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.001
    
    [GRAPHIC] [TIFF OMITTED] T4851A.002
    
    [GRAPHIC] [TIFF OMITTED] T4851A.003
    
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Texas for 2 
minutes, Mr. Green, for the purposes of opening statement.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding today's 
hearing to take another look at updating chemical regulations 
under the Toxic Substance Control Act. I want to welcome 
today's witnesses as we look at more defined issue in TSCA 
reform than our previous hearing. I look forward to hearing 
their thoughts on how to best move forward with prioritizing 
existing chemicals for review and assessment.
    I would like to ask unanimous consent to enter into the 
record this letter, Mr. Chairman, from our former colleague and 
now president and CEO of the American Chemistry Council, Cal 
Dooley. Can I have unanimous consent to place this into the 
record, Mr. Chairman?
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.004
    
    [GRAPHIC] [TIFF OMITTED] T4851A.005
    
    [GRAPHIC] [TIFF OMITTED] T4851A.006
    
    Mr. Rush. So ordered.
    Mr. Green. There is broad consensus expressed in the 
letter, from testimony today and given in testimony during our 
previous hearing in February that TSCA needs to be updated to 
give the EPA necessary authority to oversee and regulate 
chemicals that are hazardous to human health and the 
environment. As we are looking specifically at the 
prioritization process of chemicals currently in commerce 
today, I look forward to hearing what EPA plans to do under 
their existing authority to be in the prioritization process. I 
know EPA Administrator Jackson has made this a priority and I 
hope to hear how current steps taken under the Chemical Action 
Plan could be carried over to feed any subsequent 
prioritization process when there is Congressional action.
    As we move forward on developing and legislating changes to 
TSCA to establish a process of prioritizing existing chemicals, 
we must look to the hazards to human health and the 
environmental exposure and use of chemicals as well as the 
impact on sensitive populations, and children specifically. Our 
chemicals warrant assessment and reevaluation if additional 
information is discovered, but to begin with, the chemicals 
that pose the biggest risk should be regulated or banned. If 
progress is not made in this area, we are going to continue to 
see attempts to do this piecemeal by Members of Congress, 
introduce bans to ban specific chemicals. We need an efficient 
way to protect human health by giving EPA the authority to 
prioritize and regulate hazardous chemicals.
    Again, I want to thank the witnesses for being here today 
and educate our members on this issue and discuss the 
consequences of action by Congress as well as the potential 
impacts as we move forward the policy does not take into 
consideration the significance chemicals play in commerce and 
our everyday lives, and again, I thank you, Mr. Chairman. This 
is an important issue and we need to look at all aspects of 
legislating this area and the effect it will have, and I yield 
back my time.
    Mr. Rush. The gentleman from Pennsylvania, Mr. Pitts, is 
recognized.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this important hearing on chemical prioritization and standard 
setting.
    As we know, the Toxic Substance Chemicals Act signed by 
President Ford in 1976 is responsible for identifying and 
regulating toxic substances in United States commerce. TSCA 
currently regulates potential risk based on three policies. 
First, chemical manufacturers are responsible for testing 
chemicals to determine their potential effects on health and 
the environment. Second, the EPA should regulate chemicals that 
present an unreasonable risk to health or the environment, and 
third, EPA's implementation of the law should not create 
unnecessary economic barriers to technological innovation.
    In the event that this committee moves to amend this law, 
it is prudent to keep in mind that a majority of stakeholders 
believe that overhauling TSCA will involve prioritizing tens of 
thousands of chemicals. Most industry supports a method that 
requires the EPA to update its inventory to include only those 
chemicals in commerce and focus on the highest-priority 
chemicals. In addition, it is prudent that we start with 
existing data rather than requesting new data sets and 
disregarding the existing data. In addition, if reform moves 
forward, the issue of safety determination must be carefully 
evaluated. Currently, Section 6 defines a risk-based approach 
that requires the EPA to find that an unreasonable risk of 
injury must exist and that the EPA must use the least 
burdensome alternative to restrict the chemicals used in such 
cases. We must carefully evaluate the risk including hazards 
and exposures and intended uses and let these factors inform 
and guide any regulatory action. We do not want to jeopardize 
innovation.
    I appreciate the witnesses being here today. I look forward 
to listening to their testimony and I thank you and yield back.
    Mr. Rush. The Chair now recognizes the gentleman from 
Georgia, Mr. Barrow, for 2 minutes.
    Mr. Barrow. I thank the chairman. I waive.
    Mr. Rush. The Chair recognizes the gentlelady from 
Colorado, Ms. DeGette, for 2 minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing, and I also want to greet 
our witnesses, especially my friend, Assistant Administrator 
Owens, for being here today.
    I ran into our former colleague, Secretary Solis, 
yesterday. She was in my district of Denver with the First Lady 
and I was thinking about her years of courageous advocacy on 
the part of TSCA reform when she was a member of this 
subcommittee, and so we are pleased to carry on her tradition 
here today.
    There is general agreement that TSCA needs to be updated to 
keep pace with modern technology and to increase the EPA's 
resources and authority. TSCA is over 30 years old now and it 
is the only major environmental law that has not been 
reauthorized. In those 30 years, the EPA has inventoried 
roughly 82,000 chemicals used in commerce in the United States. 
How to prioritize those chemicals that are most harmful to the 
public is a daunting challenge, particularly given the lack of 
solid information that the EPA faces for many of those 
chemicals. Today I am interested in hearing about how the EPA 
can expand its knowledge to focus its attention on the most 
harmful chemicals of those 82,000 and I am also interested in 
hearing how we can make use of the knowledge base that we 
currently have to take swift action to protect the public from 
high-priority chemicals like lead, mercury and PCBs. While 
prioritization is an important part of assuring that the EPA 
directs its resources most effectively, it should not be used 
as an excuse for excessive delay when frankly we have had an 
ineffective toxic statute for over 30 years.
    Mr. Chairman, I look forward to working with you and the 
rest of the committee to strengthen TSCA, and I yield back the 
balance of my time.
    Mr. Rush. The Chair recognizes the gentleman from Georgia, 
Dr. Gingrey, for 2 minutes.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Dr. Gingrey. Mr. Chairman, I want to thank you for calling 
this hearing on the prioritization of chemical study under the 
Toxic Substance Control Act. Even though it has been a number 
of months since we last held a hearing on TSCA, I am happy that 
we have once again delved into the complex issue.
    TSCA directs the Environmental Protection Agency to 
regulate all phases of the manufacturing of chemicals and to 
identify unreasonable risk of injury from new or existing 
chemicals. In regulating these chemicals, TSCA directs the EPA 
to use the least burdensome option to reduce the risk of harm 
while balancing the benefits provided by the chemical. As a 
risk-based law, TSCA relies on the presence of sound science by 
both chemical producers and the EPA in order to properly 
implement the law.
    Mr. Chairman, while there are many laudable elements of 
TSCA, that does not mean this law is anywhere close to perfect. 
Since its enactment, chemical manufacturing processes have 
advanced as has technology. Accordingly, TSCA needs to best 
reflect the science that is currently being utilized. As we 
heard during our first hearing on this matter back in February, 
TSCA reform is needed because we need to ensure the safety of 
chemicals used in all products. However, while there is that 
consensus, the way to accomplish that reform is subject to 
debate and, yes, disagreement. Ultimately, I believe that we 
should use this hearing to learn what the appropriate safety 
standards should be on the prioritization of chemical 
regulations through TSCA. Like a number of my colleagues, I 
fear that if we use this hearing as a vehicle to fundamentally 
overhaul TSCA, we will jeopardize the long-term viability of 
the chemical industry which will have lingering ramifications 
for other industries and subsequently this stressed economy of 
ours.
    Mr. Chairman, I would suggest that as we hear from our 
distinguished panel of witnesses today, let us keep in mind the 
underlying risk-based principles that guide the current 
implementation of TSCA. I certainly look forward to their 
testimony and I yield back the balance of my time.
    Mr. Rush. The Chair now recognizes the chairman emeritus of 
the full committee, my friend from Michigan, Mr. Dingell, for 5 
minutes for the purposes of opening statement.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, first, thank you for holding 
this hearing today, and second of all, I want to commend you 
for the fine way in which you are chairing this committee. We 
owe you a debt for that.
    Since our last hearing back in February, I have heard from 
various stakeholders about the need for reauthorization and 
revamping the Toxic Substances Control Act, TSCA. After 33 
years, it has become quite clear that the law needs a thorough 
examination and reauthorization. We have heard this from 
industry, environmental groups and consumer advocacy 
organizations. Now, EPA has not banned a single chemical under 
TSCA in nearly 20 years. Despite our best intentions back in 
1976, it would appear that TSCA is not working as we hoped it 
would when it was enacted. We need to address our attention to 
whether the 84,000 chemicals in EPA's inventory growing by 700 
new chemicals introduced each year tells us that something has 
to be done and it may be that the choice before this committee 
is going to be between coming to a judgment that the EPA is 
doing a superb job, that EPA is not doing the job that it 
should, that all these chemicals or safe or that there is not 
enough money or enough attention given or that historic bad 
leadership has made it impossible for the EPA to do the job. So 
we need to have a careful look at this.
    Now, the nearly universal agreement that TSCA needs 
reauthorization is the easy part. The difficulty, as we all 
know, is in how and what we do. Frankly, the committee does 
look forward to hearing from our witnesses today, and I expect 
that we will have some very valuable differing points of view 
on the matter to look at and to frame our judgments as to how 
matters are going and what is to be done. Today the EPA has 
only been able to require testing on 200 of the 84,000 
chemicals in the inventory. Figuring a way to prioritize how 
these chemicals are to be addressed in a timely manner based on 
sound science and the broad public interest in a way that 
protects the public health promises to be challenging, but 
indeed, it must be done.
    Furthermore, I want to thank the witnesses here today for 
bringing up the important factor that often gets neglected, and 
that is funding. We need to reauthorize and to revise TSCA. We 
must work to have adequate and consistent funding for the 
program. Without this proper funding, we will not get the 
results that we want and it will lead to a constant source of 
frustration on the part of everybody including industry, which 
needs certainty in order to compete in a global marketplace, 
and we are finding that funding of programs of this kind is a 
continuing and ongoing problem. Certainly we have a similar 
situation with regard to Superfund, and I am sure that this 
committee is going to want to look at that at some early future 
time.
    Again, Mr. Chairman, thank you for the deliberate and 
thoughtful approach that the subcommittee is taking in this 
matter. It is important that we do this right, not only to get 
the desirable result of a more workable law that protects human 
health but we also need to ensure that we do not needlessly 
inflict financial burdens on industry and producers in a very 
difficult economic climate. I thank you for your courtesy to 
me, Mr. Chairman, and I yield back the balance of my time.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentleman from Pennsylvania, Mr. Murphy, for 2 
minutes.

      OPENING STATEMENT OF HON. CHRISTOPHER S. MURPHY, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Murphy. Thank you, Mr. Chairman, for holding this 
hearing on the Toxic Substances Control Act. I look forward to 
hearing all the testimony on this important issue.
    Two of my top priorities in Congress are to protect the 
health and safety of our families and to protect and grow 
American jobs. These are not mutually exclusive and I believe 
that with proper regulation we can do both.
    My district is home to chemical companies that directly 
employ 8,300 people, companies like Bayer, LANXESS, NOVA, PPG 
and Eastman, just to name a few.
    As we examine this Act, it is important to realize that 
chemical manufacturers play a central role in America's 
manufacturing base and America's safety. We have already lost 
120,000 chemical industry jobs this past decade due to volatile 
natural gas prices. As we deal with chemical regulation 
legislation, we should be careful not to drive more good jobs 
overseas but to find ways of preserving them and preserving 
public health. As America continues in this recession, these 
are the kind of jobs America needs now more than ever.
    Just about everything we come into contact with throughout 
our day can be traced to chemical companies that help improve 
our lives and make them better. However, we know that there are 
some chemicals which are harmful to people, others which make 
life better.
    As this committee looks at potential reforms to TSCA and 
how to prioritize chemicals, it is extremely important we focus 
on those chemicals and their use that are currently in commerce 
and their effect on potential health risk. We do not need to 
reinvent the wheel with each chemical as there is plenty of 
existing data and models in the EU and in Canada that we can 
look upon as we research new data.
    I look forward to hearing the testimony on the Toxic 
Substance Control Act, and I yield back, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman.
    The gentleman from Ohio, Mr. Space, is recognized for 2 
minutes.

OPENING STATEMENT OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Space. Thank you, Mr. Chairman and Ranking Member 
Radanovich for convening today's hearing and thank you to our 
witnesses for taking the time to be here.
    The overarching consensus seems to me that the Toxic 
Substances Control Act is badly in need of reform. In this day 
and age, it would be shocking if something 33 years old did not 
require updating as technology, industry and science progress. 
Specifically, we appear to all agree that changes to TSCA 
should call for the prioritization of certain chemicals for 
fast-track evaluation. Mr. Chairman, I applaud your efforts to 
continue this dialog. I truly believe that through bringing all 
stakeholders together we can develop a legislative product that 
represents an acceptable roadmap for progress. Such process 
will sure that the EPA has the authority it needs to protect 
the public, in many cases young children and other vulnerable 
populations, and the producers and downstream users are 
provided with the regulatory framework within each market so 
that they can properly prepare their goods. Ultimately, 
consumers have a right to know that the products they purchase 
and use are safe and those reassurances benefit all involved.
    I look forward to today's testimony. I look forward to 
continuing to work on TSCA reform with my colleagues. I yield 
back. Thank you, Mr. Chairman.
    Mr. Rush. The gentlelady from Illinois, the vice chair of 
the subcommittee, Ms. Schakowsky, is recognized for 2 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman, for yielding and 
holding this hearing.
    I want to publicly convey my thanks to EPA Administrator 
Lisa Jackson, who actually invited all the members of our 
subcommittee to breakfast. We enjoyed the conversation very 
much, which did involve TSCA. I want to thank Mr. Murphy for 
representing his side of the aisle at that breakfast, so I hope 
you will convey that to her, Mr. Owens.
    The Toxic Substances Control Act has many deficiencies that 
endanger the public's health. One of the most striking is that 
when it was enacted, TSCA grandfathered in without conducting 
any assessment all chemicals that existed in 1976. This problem 
was further exacerbated by the fact that the statute never 
provided adequate authority for EPA to reevaluate existing 
chemicals as new concerns arose or science was updated. 
Consequently, in the 3 decades since TSCA became law, EPA has 
only been able to test 200 of the 80,000-plus chemicals 
produced and used in the United States. There is no question 
that this has placed every American but especially our Nation's 
poorest and most vulnerable at risk of being exposed to 
potentially lethal levels of harmful chemicals that have no 
place being in our stores and in our homes and in our 
environment.
    Today's hearing will provide important insight into how 
TSCA can be amended so that the EPA does have the authority to 
immediately restrict or ban the use of chemicals like asbestos 
that we already know poses substantial risk to the public 
safety. I think a lot of people are surprised that it isn't 
banned already. I look forward to hearing from today's 
witnesses and yield back the balance of my time.
    Mr. Rush. The gentleman from Maryland, Mr. Sarbanes, for 2 
minutes.
    Mr. Sarbanes. Thank you very much, Chairman Rush, for 
holding this hearing.
    I have to say I continue to marvel at how ineffectual the 
Toxic Substances Control Act is, almost really to the point of 
making a mockery of its name. What it does is, it gives the EPA 
a front-row seat on chemical use in this country but really 
just is a kind of toothless observer, not as any kind of 
enforcer in any kind of active way, and I think most Americans 
would not believe how unregulated this arena is. They really 
couldn't fathom it. I confess, I couldn't fathom it when we had 
the first hearing on the matter. So that is why we have got to 
reauthorize TSCA in a much more aggressive way going forward, 
and these hearings are sort of part of the due diligence that 
we are conducting as we anticipate doing that.
    Because we are going to have to make up for so much lost 
time, it is critical that we do have a way of prioritizing the 
way the safety reviews are done, and that is what the testimony 
today is going to help us understand better, so I thank you for 
holding the hearing and I look forward to the witnesses' 
testimony. I yield back.
    Mr. Rush. The Chair now recognizes the gentlelady from 
Ohio, Ms. Sutton, for 2 minutes.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Chairman Rush, and thank you for 
holding this important hearing on prioritizing chemicals for 
safety determination.
    At the hearings over the last few months, we have heard 
about the need for tremendous reform to the U.S. chemical 
safety laws. Industry and a variety of environmental, animal 
welfare, health and safety groups share the goal of modernizing 
the Toxic Substances Control Act and these stakeholders have 
agreed that prioritizing chemicals should be part of this 
effort. Currently there are approximately 84,000 chemicals in 
the EPA inventory. This volume with more chemicals being 
introduced every year poses a daunting task and prioritizing is 
of course an important first step in tackling the challenge. So 
as we proceed we must be pragmatic and make decisions based on 
sound science. It would be irresponsible to set the EPA, the 
industries or consumers up to fail. Our health, the environment 
and the public's confidence are all at risk and we need to know 
that the chemicals we use are safe. We need to know that the 
chemicals that touch over 96 percent of manufactured goods are 
safe. We need to know, and until we do know, until we have a 
framework that allows the public to know, people will not feel 
safe, and frankly, they may not be safe. So an effective, 
pragmatic, science-based prioritization system is key to public 
confidence and ensuring that the chemical industry is producing 
safe products.
    In Ohio, the chemical industry directly employs over 46,000 
people with over 2,000 in my district alone, and these are 
good-paying jobs that indirectly contribute to an additional 
157,000 jobs in Ohio's economy. These jobs are clearly 
important, and as we move forward, we must forward together to 
ensure the public's trust, to protect the public and the future 
generations from the health and environmental harm and to 
provide industry with a clear direction to ensure that our 
workers keep working. These are multiple goals and multiple 
outcomes that we have to achieve, and I am confident that we 
can achieve.
    So I am grateful for the panel being here. I look forward 
to hearing your ideas about how we get there together. I yield 
back.
    Mr. Rush. The gentlelady from Florida is recognized for 2 
minutes, Ms. Castor.
    Ms. Castor. Thank you, Chairman Rush, very much, for 
calling this very important hearing.
    The oversight of these thousands and thousands of chemicals 
throughout America is vitally important to American families 
and to our public health. The Toxic Substances Control Act has 
had laudable goals but frankly it is broken. It has been very 
ineffectual. We can do a lot better.
    I would like to salute EPA Administrator Lisa Jackson for 
her leadership. She is putting protection back into 
Environmental Protection Agency where it belongs. She is 
rightfully focused on the chemicals of concern and the 
chemicals that have the highest risk to the public health.
    This is an area where American families and citizens 
everywhere rely on their government. The average person on the 
street doesn't have the expertise to determine what chemicals 
in our environment have the highest risk to our public health 
and the safety of our kids. So we have got to live up to our 
responsibility. It is our job to get this done and to ensure 
that TSCA is working for our families and citizens.
    Thank you. I yield back.
    Mr. Rush. The Chair recognizes now the gentleman from North 
Carolina, Mr. Butterfield, for 2 minutes.
    Mr. Butterfield. Thank you, Mr. Chairman. I am going to 
submit my statement for the record.
    [The prepared statement of Mr. Butterfield follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.007
    
    [GRAPHIC] [TIFF OMITTED] T4851A.008
    
    Mr. Rush. The Chair thanks the gentleman and now the Chair 
recognizes the gentleman from Utah, Mr. Matheson, for 2 
minutes.
    Mr. Matheson. Mr. Chair, I will waive my opening statement.
    Mr. Rush. Thank you very much.
    Now it comes to the point where we are delighted frankly to 
hear from our witnesses, but before our witnesses are 
recognized, it is the practice of this subcommittee to swear in 
the witnesses. So I would ask that you please stand and raise 
your right hand.
    [Witnesses sworn.]
    Mr. Rush. Let the record reflect that the witnesses have 
responded affirmatively. And now it is my privilege and honor 
to introduce the witnesses to you. On my left is the Hon. Steve 
Owens. Mr. Owens is the assistant administrator for the Office 
of Prevention Pesticides and Toxic Substances for the U.S. 
Environmental Protection Agency. Sitting next to Mr. Owens is 
Dr. Eric Sampson. Dr. Sampson is the director of the Division 
of Laboratory Sciences at the National Center for Environmental 
Health, the Centers for Disease Control and Prevention at the 
Department of the Health and Human Services. Next to Dr. 
Sampson is Dr. Daryl Ditz. He is the senior policy advisor for 
the Center for International Environmental Law. Next to Dr. 
Ditz is Mr. Bill Greggs. He is a consultant for the Consumer 
Specialty Products Association, for the Grocery Manufacturers 
Association and for the Soap and Detergent Association. And 
next to Mr. Greggs is Ms. Beth Bosley. She is a consultant also 
for the Society of Chemical Manufacturing and Affiliates.
    Again, the Chair welcomes you and the Chair now recognizes 
the Hon. Steve Owens for 5 minutes for the purposes of an 
opening statement.

 TESTIMONY OF STEVE OWENS, ASSISTANT ADMINISTRATOR, OFFICE OF 
PREVENTION, PESTICIDES AND TOXIC SUBSTANCES, U.S. ENVIRONMENTAL 
    PROTECTION AGENCY; ERIC SAMPSON, DIRECTOR, DIVISION OF 
LABORATORY SCIENCES, NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, 
CENTERS FOR DISEASE CONTROL AND PREVENTION; DARYL DITZ, SENIOR 
  POLICY ADVISOR, CENTER FOR INTERNATIONAL ENVIRONMENTAL LAW; 
     BILL GREGGS, CONSULTANT, CONSUMER SPECIALTY PRODUCTS 
  ASSOCIATION, GROCERY MANUFACTURERS ASSOCIATION AND SOAP AND 
DETERGENT ASSOCIATION; AND BETH BOSLEY, CONSULTANT, SOCIETY OF 
             CHEMICAL MANUFACTURERS AND AFFILIATES

                    TESTIMONY OF STEVE OWENS

    Mr. Owens. Thank you, Mr. Chairman, and good morning to you 
and good morning to Vice Chair Schakowsky and Ranking Member 
Radanovich and members of the subcommittee. I thank you for the 
opportunity to address you today and I thank all of you for 
your leadership on this very important issue.
    I have been on the job as the assistant administrator for 
the Office of Prevention, Pesticides and Toxic Substances for 
roughly 4 months now, so I am trying to get up to speed and 
working hard on this and other critical issues that are facing 
the EPA, but I do want to say at the outset, as many of you 
know, I was a former Congressional committee staffer. It is a 
little different being on this side of the microphone than it 
was back then in those days, but again, I appreciate the 
opportunity to be here. It is also a privilege to be here with 
Dr. Eric Sampson, my colleague from the Centers for Disease 
Control. We work very closely with CDC on biomonitoring and a 
host of other very important issues.
    As many of you have noted this morning, EPA has 
jurisdiction over chemicals pursuant to the 1976 Toxic 
Substances Control Act, which is called TSCA. TSCA is the only 
major environmental statute that has not been reauthorized 
since its passage and there are over 80,000 existing chemicals 
currently on the TSCA inventory, a few of which have actually 
been studied for their risk to children and families. Unlike 
the laws applicable to drugs and pesticides, TSCA does not have 
a mandatory program by which EPA must review the safety of 
existing chemicals, and in addition, TSCA places legal and 
procedural requirements on EPA's ability to request the 
generation and submission of health and environmental data on 
existing chemicals.
    TSCA was an important step at the time it was enacted 33 
years ago but over the years not only has TSCA fallen behind 
the industry it is supposed to regulate, it has also proven 
inadequate for providing the protection against chemical risk 
that the public rightfully expects. As noted by Vice Chair 
Schakowsky, when TSCA was enacted it grandfathered in without 
any evaluation more than 60,000 chemicals that were in 
existence in 1976. And further, TSCA never provided adequate 
authority for EPA to reevaluate existing chemicals as new 
concerns arose or as science was updated, and it failed to 
grant EPA full authority to compel companies to provide 
toxicity data on those chemicals. As a result, in the 33 years 
since TSCA was enacted, EPA has been able to require testing on 
only around 200 of the more than 80,000 chemicals now produced 
and used in the United States.
    It has also been difficult for EPA to take action to limit 
or ban chemicals that have actually been found to cause 
unreasonable risk to human health or the environment. Even if 
the EPA has substantial data and wants to protect the public 
against known risk, the law creates obstacles to quick and 
effective regulatory action. For example, as was noted, after 
years of study and nearly unanimous scientific opinion, EPA 
issued a rule phasing out most uses of asbestos in products. 
Yet a federal court overturned most of this action because the 
rule failed to comply with the complicated requirements of 
TSCA. In fact, since 1976, only five chemicals have been 
successfully regulated under TSCA's authority to ban chemicals.
    The problems with TSCA are so significant that the GAO has 
put TSCA on its high-risk list of items needing attention.
    Today, advances in toxicology and analytical chemistry are 
revealing new pathways of exposure. There are subtle and 
troubling effects of many chemicals on hormone systems, human 
reproduction, intellectual development and cognition, 
particularly in young children. It is clear that TSCA must be 
updated and strengthened for EPA to properly do our job of 
protecting public health and the environment.
    As noted, Administrator Lisa Jackson recently announced a 
set of principles on behalf of the Obama Administration to help 
inform the drafting of a new law to fix TSCA. These principles 
are: First, chemicals should be reviewed against safety 
standards that are based on sound science and reflect risk-
based criteria protective of human health and the environment. 
Second, the responsibility for providing adequate health and 
safety information should rest on industry and EPA should have 
the necessary tools to quickly and efficiently require testing 
or obtain other information from manufacturers relevant to 
determining the safety of chemicals. Third, EPA should have 
clear authority to take risk management actions when chemicals 
do not meet the safety standards with the flexibility to take 
into account a range of considerations including children's 
health, economic costs, social benefits and equity concerns. 
Fourth, EPA should have clear authority to set priorities for 
conducting safety reviews. Fifth, we must encourage innovation 
in green chemistry and support strategies that will lead to 
safer and more substantially sustainable chemicals and 
processes. And finally, implementation of the law should be 
adequately and consistently funded in order to meet the goal of 
assuring the safety of chemicals and to maintain public 
confidence that EPA is meeting that goal. Manufacturers of 
chemicals should support the cost of agency implementation 
including the review of information provided by manufacturers.
    We know that legislative reform may take time. 
Consequently, Administrator Jackson has directed my office in 
the interim to utilize our current authority under TSCA to the 
fullest extent possible to protect the American people from 
dangerous chemicals. We are currently evaluating an initial set 
of chemicals based on available hazard, exposure and use 
information for potential action. The factors we are using to 
determine this initial set include the use of the chemicals in 
consumer products, their persistence in human blood, the 
persist bioaccumulative and toxic characteristics of the 
chemicals, or otherwise known as the PBT characteristics, the 
toxicity of the chemicals and the volume of production of the 
chemicals in commerce. We will produce what we are calling 
actions plans that will outline the risks that these chemicals 
may present and establish that we may take to address those 
concerns. And following the initial list of chemicals that we 
address and the initial set of action plans that we produce, we 
will engage with stakeholders on prioritizing additional 
chemicals for evaluation and we aim to complete a group of 
action plans every 4 months going forward. EPA intends to 
engage stakeholders, federal partners and the public in the 
discussion of prioritizing chemicals for future risk management 
actions.
    Mr. Chairman, the time has come to bring TSCA into the 21st 
century, and Administrator Jackson and I very much look forward 
to working with Congress and you and members of the 
subcommittee on this very important issue. I appreciate again 
the opportunity to be here.
    [The prepared statement of Mr. Owens follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.009
    
    [GRAPHIC] [TIFF OMITTED] T4851A.010
    
    [GRAPHIC] [TIFF OMITTED] T4851A.011
    
    [GRAPHIC] [TIFF OMITTED] T4851A.012
    
    [GRAPHIC] [TIFF OMITTED] T4851A.013
    
    [GRAPHIC] [TIFF OMITTED] T4851A.014
    
    Mr. Rush. Thank you very much.
    The Chair now recognizes Dr. Sampson for 5 minutes.

                   TESTIMONY OF ERIC SAMPSON

    Mr. Sampson. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Eric Sampson. Thank you for this 
opportunity to testify concerning our experiences with 
biomonitoring and setting public health-related priorities for 
chemical exposures. It has been my pleasure to serve as the 
director of the Division of Laboratory Sciences at CDC for 25 
years during which time our biomonitoring program has grown 
from a very small activity into a mature scientific discipline.
    Biomonitoring as we define is the science of directly 
measuring chemicals and samples from people, typically blood 
and urine samples. We are aware that biomonitoring data 
personalizes exposure to chemicals and can lead to a high level 
of interest and concern. As such, we go to great care to ensure 
that we are providing the highest quality measurements that can 
be performed.
    One thing we do in setting priorities to take a snapshot of 
chemical exposures in the U.S. population and to identify 
subgroups with higher levels of exposure. To accomplish that, 
we perform biomonitoring measurements in samples from 
participants in the National Health and Nutrition Examination 
Survey, which is a nationally representative sample of the U.S. 
population. Survey participants receive a physical examination, 
complete a detailed questionnaire that collects more than 1,000 
pieces of information, and donate blood and urine samples.
    Our biomonitoring data from this survey are made publicly 
available by the National Center for Health Statistics. In 
addition, our staff and other scientists publish the findings 
in peer-reviewed journals and periodically we publish a 
National Report on Human Exposure to Environmental Chemicals. 
Our Fourth Report is due out by the end of this year.
    A second way we try to establish priorities is to partner 
with States, other federal agencies, academic institutions and 
international organizations on 50 to 70 studies each year to 
examine vulnerable populations or populations likely to have 
higher exposure to chemicals. In that regard, I would like to 
highlight a recent partnership with NIH's National Children's 
Study, which will follow 100,000 children from before birth to 
age 21. Our laboratory is collaborating on a pilot study of the 
first 520 women in which we will be measuring chemicals in 
pregnant women's blood and urine and then after delivery the 
newborn's cord blood and mother's breast milk.
    Finally, we help States set their own priorities by 
transferring our biomonitoring technology to their State 
laboratories. In fiscal year 2009 with new Congressional funds, 
CDC awarded a total of $5 million to California, New York and 
Washington for State-based biomonitoring programs.
    At CDC, we use biomonitoring to establish reference ranges 
in the U.S. population and to identify groups of people with 
higher levels of exposure. In addition, by tracking exposures 
in the U.S. population, we can detect trends in people over 
time and assess whether a chemical is present in a large number 
of people or is disproportionately present in vulnerable 
subgroups such as children. This information is used by 
scientists and policymakers as one consideration in setting 
priorities for health impacts of chemicals.
    In conclusion, biomonitoring offers a strong scientific 
basis for helping to prioritize chemicals for public health. We 
are fully committed to working with other federal agencies and 
partners in expanding the uses and benefits of biomonitoring.
    Thank you, Chairman Rush, and members of the subcommittee. 
I look forward to answering any questions.
    [The prepared statement of Mr. Sampson follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.015
    
    [GRAPHIC] [TIFF OMITTED] T4851A.016
    
    [GRAPHIC] [TIFF OMITTED] T4851A.017
    
    [GRAPHIC] [TIFF OMITTED] T4851A.018
    
    [GRAPHIC] [TIFF OMITTED] T4851A.019
    
    [GRAPHIC] [TIFF OMITTED] T4851A.020
    
    [GRAPHIC] [TIFF OMITTED] T4851A.021
    
    [GRAPHIC] [TIFF OMITTED] T4851A.022
    
    [GRAPHIC] [TIFF OMITTED] T4851A.023
    
    Mr. Rush. Thank you. The Chair now recognizes Dr. Ditz for 
5 minutes.

                    TESTIMONY OF DARYL DITZ

    Mr. Ditz. Thank you, Chairman Rush, Ranking Member 
Radanovich and members of the subcommittee for the opportunity 
to testify today.
    The public is rightly concerned about the long-term effects 
of chemicals on health including increasing incidence of 
asthma, autism, birth defects, infertility and certain types of 
cancer. It is especially troubling in light of the growing 
evidence that industrial chemicals are building up in our 
bodies and in our children's. The Toxic Substances Control Act 
has failed to assess, let alone guarantee, safety of the 
overwhelming majority of chemicals on the market. TSCA stymies 
action by EPA, as you just heard, and other agencies. It 
perpetuates the reliance on dangerous chemicals. It leaves 
businesses in the dark and it undermines U.S. competitiveness. 
So I am grateful for this opportunity to discuss practical 
improvements to TSCA that can bring it into the 21st century.
    I strongly agree that the United States must set priorities 
in order to manage chemicals safely but beware of any proposal 
that would give thousands of chemicals a free pass. More on 
that in a second.
    Today I would like to discuss three critical fixes to TSCA. 
First, EPA needs authority to promptly regulate the worst of 
the worst chemicals. Second, EPA should evaluate all chemicals 
against a health-based standard. Third, Congress should require 
chemical manufacturers to provide all necessary information. 
Together, these can result in a stronger, more effective TSCA 
that restores public confidence while protecting the health of 
American workers, consumers and communities.
    Let me briefly elaborate on these three points. First, EPA 
needs authority to regulate the worst of the worst chemicals. A 
new, reinvigorated TSCA can pinpoint high chemicals even now 
despite large data gaps. Chemicals that persist in the 
environment, that bioaccumulate in our bodies and threaten 
public health by their toxicity are especially high priorities 
for action. Such chemicals, called PBTs for short, defy 
traditional risk assessment techniques. For these substances, a 
slow, methodical process for evaluating safety is not necessary 
and it is not appropriate. The United States has already 
acknowledged the need to act on PBTs but EPA, as you have 
heard, is severely constrained by the statute. More than a 
decade ago, the United States and Canada targeted such 
pollutants for phase-out based on their buildup in the Great 
Lakes. Frustrated by the slow pace of federal progress, States 
from Maine to Hawaii are taking decisive action to tackle these 
chemicals.
    Eliminating PBTs is also the goal of the Stockholm 
Convention on Persistent Organic Pollutants. This international 
treaty signed under President George W. Bush has been ratified 
by 168 countries but not the United States. Meanwhile, PBT 
levels are rising in the U.S. population, and sadly, Native 
Americans in Alaska, quite counterintuitively, are among the 
highest exposed people in the world.
    In addition to PBTs, chemicals like formaldehyde, asbestos, 
phthalates, mercury and bisphenol A also warrant immediate 
action. The EPA administrator recently announced plans to 
address these and other notorious substances but the agency's 
ability to act depends on TSCA's unreasonable-risk standard, 
which is the Achilles heel that has prevented effective action 
for more than 2 decades.
    Second, the EPA should evaluate all chemicals against a 
health-based standard. Because it will takes years to complete 
this task, the EPA should prioritize the order in which 
chemicals are evaluated. The proposed 2008 Kid-Safe Chemicals 
Act charged the EPA with deciding which substances should be 
evaluated first based on a set of multiple criteria: high 
production volume, known hazards, presence in air, water and 
food, or human exposure. These are all reasonable factors to 
consider in managing an orderly process. But here is a critical 
point. Prioritization should be applied to organize the review 
but not to circumvent a full safety evaluation. It would be a 
serious mistake if in the guise of priority setting many or 
most chemicals escape the needed scrutiny. The American 
Chemistry Council's new principles for modernizing TSCA appear 
to favor this shortsighted approach.
    Third, Congress should require chemical manufacturers to 
provide up-to-date, comprehensive safety information. This is 
vital if we are going to identify chemicals that pose little or 
no concern as well as high-risk chemicals. There is a role for 
prioritization here too. Chemicals that are first in line for 
the safety determination should be required to submit their 
data first. It just makes sense. Eventually all chemicals on 
the market should be required to submit and periodically update 
this information. That is basically how we regulate pesticides 
and pharmaceuticals today and it is suitable for industrial 
chemicals too. Safety data should also be supplemented by the 
kind of biomonitoring data we just heard about from CDC which 
provides a good reality check on the actual exposures of people 
in the real world.
    Finally, in filling the existing data gaps, a revitalized 
TSCA can benefit from REACH, which his the European Union's 
attempt to update their own chemical law. This initiative is 
already generating valuable information that we can use to 
protect the health and safety of Americans and bolster our own 
international competitiveness. Thank you.
    [The prepared statement of Mr. Ditz follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.024
    
    [GRAPHIC] [TIFF OMITTED] T4851A.025
    
    [GRAPHIC] [TIFF OMITTED] T4851A.026
    
    [GRAPHIC] [TIFF OMITTED] T4851A.027
    
    [GRAPHIC] [TIFF OMITTED] T4851A.028
    
    [GRAPHIC] [TIFF OMITTED] T4851A.029
    
    Mr. Rush. The Chair now recognizes Mr. Greggs for 5 
minutes.

                    TESTIMONY OF BILL GREGGS

    Mr. Greggs. Thank you, Chairman Rush, Ranking Member 
Radanovich and members of the subcommittee for asking me to 
testify. I am Bill Greggs, a chemical engineer. My field of 
expertise is in global chemical management policy supporting 
the development of safe and sustainable products.
    I am testifying on behalf of the Consumer Specialty 
Products Association, the Grocery Manufacturers Association and 
the Soap and Detergent Association. Now, these groups represent 
users of chemicals that are formulated into a broad array of 
consumer and commercial products. Our members are committed to 
manufacturing safe and innovative products that provide 
essential benefits to consumers while protecting public health 
and the environment.
    Now, product safety is the foundation of consumer trust and 
confidence and our industry devotes substantial resources to 
achieving that goal. We support the modernization of TSCA and 
we continue to urge Congress to establish a stakeholder process 
to identify and work on the complex issues that are involved in 
this legislation. Prioritizing chemicals for review and 
assessment is key to TSCA's modernization. It provides the 
means to efficiently address important policy concerns such as 
children's health and chemical exposures that are identified 
through biomonitoring.
    Now, you have my written testimony. I really want to 
briefly summarize three main points. The first is setting 
priorities based on hazard and exposure, the second is a quick-
start concept and the third is stakeholder involvement.
    Now, the priority-setting process developed by Congress 
must be risk based, that is, it ought to consider both hazards 
and potential exposures of a chemical in setting priorities. 
Our associations have collaborated with others in industry to 
develop an efficient risk-based matrix tool that EPA can use to 
set priorities in a timely manner. EPA can employ this tool to 
select the highest hazard and the highest potential exposure 
chemicals as the highest priority for further assessment. 
Chemicals with low hazard and potential exposure would be the 
lowest priority.
    Now, this tool produces a numerical ranking, which is a lot 
better than kind of a yes-no type of approach. The matrix is 
illustrated in this illustration on my right. It shows 
increasing levels of hazard along the vertical access, and EPA 
would consider in this human environmental toxicology 
information such as whether a chemical has been identified as 
causing cancer, reproductive or developmental toxicity or is 
persistent, bioaccumulative and toxic. Indicators of increasing 
exposure are shown on the horizontal access. EPA would consider 
in this the use pattern of a chemical such as its use in closed 
systems, use in consumer and commercial products, and products 
intended for use by children. Also, EPA should consider CDC's 
biomonitoring findings as well as information from industrial 
releases and from environmental monitoring.
    To reiterate, hazards and potential exposures must both be 
considered. A single factor, just hazard of just exposure, 
really isn't sufficient. If everything is a priority, then 
nothing is a priority. This process is relatively 
straightforward and EPA can conduct it in a reasonable time 
frame, ranking all chemicals from high to low. Where 
information is not available, the agency, we believe, should 
have the authority that it doesn't have today to require timely 
submission of information after which a chemical can then be 
ranked. Additionally, this tool is dynamic as well. It allows 
EPA to update priority when new information does become 
available.
    Now, the second idea that we have for Congress is to 
develop an additional mechanism, kind of a quick-start 
approach. It has been discussed today about the anxiety and the 
interest in moving quickly. We think EPA through this mechanism 
can identify the very highest-priority chemicals for immediate 
assessment. To do this, EPA would select chemicals that have 
the very highest hazards such as known carcinogens, 
reproductive or developmental toxicants, or PBTs, and the 
highest potential exposure, for instance, chemicals measured in 
CDC's biomonitoring program or used in chemicals intended for 
children. This would be identified 50 to 100 chemicals that 
could quickly move into EPA's safety assessment process while 
the agency completes priority setting for the remaining 
chemicals.
    The third point is stakeholder involvement. The priority-
setting process we believe should involve review and comment by 
stakeholders to allow them to provide additional data to EPA 
and allow more-informed decisions by EPA. CSPA, GMA and SDA 
believe this priority-setting approach is straightforward and 
efficient. We have discussed it with many industry and non-
governmental groups and with many of your offices. We think it 
can provide EPA with a good way to identify the highest-
priority chemicals for further assessment.
    Our associations look forward to working with you to 
modernize TSCA. Thank you very much.
    [The prepared statement of Mr. Greggs follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.030
    
    [GRAPHIC] [TIFF OMITTED] T4851A.031
    
    [GRAPHIC] [TIFF OMITTED] T4851A.032
    
    [GRAPHIC] [TIFF OMITTED] T4851A.033
    
    [GRAPHIC] [TIFF OMITTED] T4851A.034
    
    [GRAPHIC] [TIFF OMITTED] T4851A.035
    
    Mr. Rush. The Chair thanks the gentleman, and now the Chair 
recognizes Ms. Bosley for 5 minutes.

                    TESTIMONY OF BETH BOSLEY

    Ms. Bosley. Good afternoon, Chairman Rush, Ranking Member 
Radanovich and members of the subcommittee. I am pleased to 
testify before you today on behalf of the Society of Chemical 
Manufacturers and Affiliates, or SOCMA. SOCMA has served the 
batch and specialty chemical industry since 1921. We have 300 
members, usually small-to medium-sized companies. Our members 
make a $60 billion annual impact to the national economy and we 
contribute to the chemical industry's position as one of the 
Nation's largest exporters.
    As we testified before the subcommittee last February, 
SOCMA supports EPA's and Congress's fundamental goal of 
protecting human health and the environment from hazardous 
chemical exposure. SOCMA members are prepared to continue doing 
our part in this effort. We are pleased to have this 
opportunity to share with you our perspective on revising TSCA. 
SOCMA agrees that TSCA can be modernized and that policy goals 
can be accomplished in a way that doesn't devastate a strategic 
American industry already fighting recession and foreign 
competition. As I will discuss, two principles are essential to 
sustainable chemical management law that won't eliminate jobs, 
economic growth or critical products. First, TSCA priorities 
should be established based on risk, as you have heard from 
some other witnesses this morning, and second, proven 
regulatory mechanisms should be used as the basis for this 
modernization.
    Prioritization of risk must remain a fundamental principle 
of TSCA. This means basing priorities and regulatory criteria 
on scientific evaluation of toxicological response and exposure 
factors. For instance, if a chemical is highly toxic but used 
only in strictly controlled industrial environments or in small 
quantities, then the risk to public health is fairly small.
    The second important principle for TSCA reform is 
leveraging regulatory mechanisms that already work. We agree 
with EPA that the existing regulatory framework is better 
suited to American health, environmental and economic interests 
than Europe's monolithic regime known as REACH. Applying an 
approach like REACH in the United States could devastate small- 
and medium-sized companies and do so unnecessarily since a more 
practical approach is available. Industry certainly does not 
oppose the potential for new regulation. We acknowledge the 
success of current environmental laws and programs and these 
mechanisms show promise in being able to achieve new policy 
objectives without sacrificing hundreds of businesses and 
thousands of jobs. For example, the Canadian approach to 
chemicals management has systematically prioritized that 
nation's inventory and is therefore much further ahead of EU 
with respect to evaluation of chemicals in commerce.
    Another mechanism supported by SOCMA was the inventory 
reset, which was part of EPA's recently discontinued ChAMP 
program. This would have provided an accurate measurement of 
the chemicals now in commerce, which we believe is the only 
realistic starting point. Of the over 80,000 chemicals now 
listed on the inventory, data suggests that only about one-
third of these are presently in commerce. The program also 
identified categories of well-characterized chemicals, 
prioritized them and systematically targeted them for further 
review. Even the TSCA critics did not challenge the groupings 
identified by EPA at that time and supported this notion of 
prioritization. The program then went into an evaluation of the 
risks associated with the exposures to these chemicals. For 
these reasons, we believe that ChAMP should not have been 
abandoned because it will simply have to be reinstituted under 
another name.
    We should also embrace the TSCA mechanisms that have worked 
well like the New Chemicals Program, where EPA has successfully 
reviewed roughly 40,000 new chemicals since 1979 without 
impeding the innovation that is crucial to American 
competitiveness. Through this EPA program known as the PMN 
process, over 1,000 chemicals undergo a review every year. This 
successful model should also be applied to existing chemicals. 
We should recognize the massive amount of data that was 
generated during HPV, or High Production Volume program, and 
leverage that data in making initial determinations of risk. 
With reasonable amendments, TSCA should provide an easier 
mechanism for EPA to poll manufacturers and users for data on 
volume, health effects, and by health effects, I mean all 
health effects. Right now EPA gathers data only on adverse 
health effects. And we also need to know exposure 
characteristics both to the environment and to human health. 
Section of Canada's Environmental Protection Act effectively 
enables this sort of data collection.
    SOCMA members have a deep commitment to the safe use of our 
chemicals and we are proud of our collective track record in 
protecting our workers and in our communities. SOCMA favors a 
formulation whereby EPA would make a safety determination and 
that safety determination should be based first on risk. We 
also believe that EPA should not be burdened with the 
determination that each chemical is safe for its intended use. 
Specific chemicals and specific uses may be approached this way 
when dealing with a short list of chemicals and narrow uses 
such as pesticides under FIFRA and drugs under the FDA. But 
with 55 categories of chemicals, a requirement that all new 
uses of any chemical be specifically approved would be 
burdensome and delay our transition to a lower carbon future. 
Instead, under an improved TSCA, EPA should provide goals, 
prioritization and oversight but implementation should be based 
on proven and practical regulatory mechanisms.
    Finally, regardless of what approach Congress adopts, EPA 
will need to be adequately funded. The biggest shortcoming of 
the TSCA program today is a lack of resource and not the lack 
of the authority.
    I thank you for this opportunity to describe a pragmatic 
approach to TSCA reauthorization and I would be happy to answer 
any questions you have.
    [The prepared statement of Ms. Bosley follows:]

    [GRAPHIC] [TIFF OMITTED] T4851A.036
    
    [GRAPHIC] [TIFF OMITTED] T4851A.037
    
    [GRAPHIC] [TIFF OMITTED] T4851A.038
    
    [GRAPHIC] [TIFF OMITTED] T4851A.039
    
    Mr. Rush. The Chair thanks all their witnesses for their 
testimony. Now it comes to the time where members of the 
committee will query the witnesses, and the Chair now 
recognizes himself for 5 minutes for the questioning of the 
witnesses.
    One of the biggest problems that has been stated 
previously, one of the biggest problems today with TSCA is a 
lack of information on which EPA can base its decisions. A lack 
of information does not mean that there is not a problem. Also 
without information, it is hard to make informed decisions on 
prioritization. It seems to me that the EPA should require the 
submission of crucial information needed to determine how a 
chemical should be prioritized. The chemical industry is not 
currently required under TSCA to develop data on toxicity or 
exposure of the chemicals for chemicals that existed in 
commerce when TSCA was passed. My question is focused on the 
testimony of Mr. Owens. Mr. Owens, certain voluntary programs 
that offer a menu for industry to produce and submit data to 
EPA, have they been successful? And I have two related 
questions. You can answer all three of them at the same time. 
Do you believe there is existing data that has not been 
provided to EPA because submission is not mandatory? And the 
last part of the question is, if there were a mandatory 
submission of existing data to EPA, I would think that this 
requirement would be required not only for chemicals currently 
in commerce but for any chemical for which data may be 
available. Wouldn't a comprehensive data collection process 
assist the agency in other areas such as environmental cleanup, 
et cetera? Would you care to answer those questions, please?
    Mr. Owens. Thank you, Mr. Chairman. I will actually take 
them a little bit out of order, if I may, your last question 
first. I think absolutely a comprehensive data collection 
system would benefit not just the TSCA program but the agency 
as a whole. That is one of the biggest challenges that we face 
in implementing TSCA as well as some other programs but 
especially TSCA, that we don't have the data we need to make 
the kinds of safety determinations that we feel to be making in 
order to protect the health and safety of the American people 
and the children and families in this country.
    With regard to your first question about voluntary 
programs, I think you asked whether they were successful. I 
would I think overall have to say no but maybe to qualify it by 
saying kind of sort of. The so-called ChAMP program that was 
started under the previous Administration was only modestly 
beneficial at best. It collected some data from some companies. 
It was an effort designed to develop screening-level 
assessments and to prioritize thousands of chemicals. It was 
over 6,000 chemicals that the agency was looking at at the time 
and it seems that some folks outside the agency have a much 
higher opinion of ChAMP than the people who are actually 
implementing it inside the agency. And a decision was made 
before I came on board in July by Administrator Jackson to take 
a look at ChAMP to see how it was working, and based on the 
review that was conducted by the staff at OPPTS, it was 
determined that that program, ChAMP, was too focused on 
categorizing chemicals and it would take years and years in 
order to get around to categorizing all those chemicals, and 
those categorizations were having to be made on the basis of 
incomplete and inadequate information because it was a 
voluntary program. So being a westerner, I think one way that I 
have always tried to describe the ChAMP program since I have 
been there is, especially folks from Texas might say but in 
Arizona we would say as well it was all hat and no cattle, that 
is looked good on the outside but in terms of actually 
achieving what we needed to have it achieve and the agency just 
didn't do the job.
    But lastly, you asked the question about is there existing 
data that is out there that hasn't yet been provided. TSCA does 
require companies if they have data in their possession of 
adverse health and environmental effects, they are required to 
provide that, and so it was actually a perverse disincentive in 
the statute for the generation of that kind of data because if 
they have it, they have to turn it over. There is no 
requirement now that they actually provide it up front either, 
especially for an existing chemical because of the way that new 
chemicals are treated vis-`-vis existing chemicals. But even 
with a new chemical, the burden is still on EPA to show that we 
think that there may be a problem from a health and 
environmental perspective in order to request data from the 
manufacturers or producers of those chemicals before it 
actually has to be provided to us.
    Mr. Rush. Thank you.
    The Chair now recognizes the ranking member for 5 minutes.
    Mr. Radanovich. Thank you, Mr. Chairman, and again welcome 
everybody to the subcommittee.
    Mr. Owens, I would like to ask a few questions. Although I 
appreciate the testimony of everybody who is here, I really 
kind of want to get into this 80,000 figure because it was 
mentioned in some previous testimony but a third of that is 
stuff that is not in commerce anymore. There is some talk of 
worst-of-worst chemicals but I have not heard an amount of what 
is, you know, the numbers that entails. Here is what concerns 
me: 10 percent unemployment. I live in a part of California 
where the misapplication of the Endangered Species Act has 
driven the timber industry out of the State of California. In 
my area there used to be a number of them, now there is none 
because of overregulation. My concern is that when you are here 
talking about 80,000 chemicals without differentiating between 
the two of them, you are talking about canceling ChAMP, which 
is a cooperative effort, I think, between the government and 
the industry to base some risk assessment on these chemicals 
and you are looking at beefing up the Administration to me 
looks like treating those 80,000 chemicals the same. You are 
going to be driving the chemical production industry out of the 
United States much the way that the timber industry has been 
driven out by the Endangered Species Act. Is that what you want 
to do at the Administration, Mr. Owens? Do you want the 
chemical production industry to leave the United States?
    Mr. Owens. Is that a yes-or-no question?
    Mr. Radanovich. Sure. Please. I don't have a lot of time.
    Mr. Owens. Representative Radanovich, I think the best way 
to answer that is obviously no, sir.
    Mr. Radanovich. Is the Administration aware that the 
unemployment right now is over 10 percent? It is a fair 
question. This is my time and it is a fair question.
    Mr. Owens. I believe they are, Mr. Radanovich.
    Mr. Radanovich. Thank you. Can you tell me, what is the 
worst of the worst? I will ask you, Mr. Owens or Mr. Ditz, what 
is the worst of--how many are there worst-of-worst chemicals on 
the list of 80,000?
    Mr. Owens. Congressman, if I may, I will go back a little 
bit to your question about the 80,000 because I think that was 
an important point you did make in that regard, that it isn't 
clear exactly how many of those 80,000 are still in commerce. 
There is a general belief that obviously the overwhelming 
majority of those chemicals are still in commerce. There are 
some questions out there certainly by industry and also by our 
agency that the existing inventory may not actually reflect 
what is going on out there. There is an effort----
    Mr. Radanovich. Would you agree with the statement that 
there was about one-third that is not in commerce now?
    Mr. Owens. No, sir, I couldn't agree with that now because 
we just don't know. That assertion has been made by some 
industry groups but we just don't know, and one of the things 
that we do intend to move forward with over time is looking at 
updating the inventory, what is called the inventory reset. We 
would have to move forward with that in some point in the 
future after we get the other things in a row here. That was a 
long-term goal of the agency as part of the ChAMP program and 
some of the other efforts that were underway, and I think that 
is a valuable thing that we need to do in the future. The 
challenge is that we have to get that information from the 
industry groups. You have to have a mechanism for getting that 
and we have to have reliable data on what really is being used 
out there and what is being produced in commerce.
    Mr. Radanovich. Thank you, Mr. Owens.
    Mr. Ditz, how many are the worst of worst? How many?
    Mr. Ditz. Of course, when we have the giant question marks 
about what----
    Mr. Radanovich. Mr. Ditz, if you could just say how many 
worst of worst chemicals are out there.
    Mr. Ditz. Thank you. I will try to give you a straight 
answer.
    Mr. Radanovich. Well, it would be a number. Since you are 
the expert, you can tell me how worst-of-worst chemicals are 
out there.
    Mr. Ditz. I can tell you roughly how many chemicals are 
known to be in this group. For example, for PBT chemicals----
    Mr. Radanovich. Just tell me----
    Mr. Ditz [continuing]. We are talking about dozens.
    Mr. Radanovich. Mr. Ditz, if you could--dozens, so there is 
12, 24?
    Mr. Ditz. No, that would be a dozen, but there are 21, for 
example, on the international treaty, which the rest of the 
world is moving on with. There are----
    Mr. Radanovich. OK. So there are 80,000 chemicals out there 
and you have got probably say less than 50 that are on the 
worst of worst.
    Mr. Ditz. There is no way to know, and this is exactly the 
point that this hearing is so helpful for. We will never know 
unless they look at the----
    Mr. Radanovich. All right. I appreciate the fact. I am just 
trying to get things in perspective because I don't want the 
chemical production industry to go offshore. Pretty much that 
it is. Thank you very much.
    Now, Mr. Owens, you mentioned, ChAMP and how there was 
careful consideration under my, the information that I have, it 
was a rather hasty move. Can you tell me how you went through 
the deliberative process? And I would also like to know how 
that effects the Montebello Agreement where ChAMP was a 
significant part in the cooperation between Mexico and Canada 
in getting a handle on these chemicals and regulating them.
    Mr. Owens. Congressman, the review that took place, as I 
said, did place before I got there but what the staff did was 
take a look at the timelines involved for review of the over 
6,000 chemicals that were being looked at under ChAMP, the 
types of data, the information that were being provided and it 
was fairly spotty, kind of hit-or-miss data that was coming in, 
some companies providing a fair amount, others providing none 
at all. Some chemicals had what they were calling sponsors 
where a particular company or group of companies would provide 
data on that. Other chemicals were completely orphaned and 
there was no data at all on those chemicals, so it really was a 
hit-or-miss, very spotty process going forward with ChAMP, and 
with the length of time it was going to take under the existing 
regulatory regime to cajole that data out of the people who had 
it, if it existed at all out there among industry groups, then 
to put it into these bins, as they were being called, three 
different categories that the agency was going to use, and then 
somewhere down the line to get around to actually deciding 
which were the worst of the worst and to do something about it, 
we were looking at years and years and years down the road.
    With the focus of Administrator Jackson on the need to make 
chemical management a top priority for our agency and to do the 
kinds of things we need to do to protect the health and safety 
of children and families in this country, it was felt that we 
needed to take a more proactive approach to trying to identify 
what might be the worst-of-the-worst chemicals, in the 
immediate sense to take action on them, and that is why we have 
been developing these action plans, as I mentioned. We are 
hoping to unveil some of them in December and then every 4 
months or so thereafter to have another smallish group of 
roughly four or so chemicals. You know, it is a pretty modest 
approach that we will be undertaking because of the limitations 
we have under TSCA and the limited amount of information but we 
are taking the data that we received under ChAMP and that we 
otherwise have at the agency, applying it to chemicals as we 
know we have, looking at data that CDC and other folks have 
developed through the biomonitoring processes that they have 
and the studies that have been done out there to do that kind 
of work.
    Mr. Radanovich. Thank you, Mr. Owens. I appreciate your 
testimony.
    Mr. Rush. The gentlelady from Illinois is recognized for 2 
minutes.
    Ms. Schakowsky. Two minutes?
    Mr. Rush. For 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Dr. Sampson, you talked about three States getting 
additional funds for biomonitoring, and you mentioned--and I am 
concerned. I live in Chicago and we are sitting on 20 percent 
of the world's surface water in the Great Lakes. My 
understanding is that every fish that is caught in Illinois has 
excessive levels of mercury. I just wanted to know if there is 
any opportunity for a Midwestern city on the Great Lakes could 
be part of that or if you are doing that in other ways?
    Mr. Sampson. In the awards that we mentioned for 
California, New York and the State of Washington, there were 
actually 33 States that turned in applications. They turned in 
very good proposals on how they would use their money locally 
and so----
    Ms. Schakowsky. Well, you know, Dr. Ditz mentioned the 
Great Lakes. I just think that is really important that we look 
at that as well.
    Mr. Owens, you said you are going to release action plans 
in December and then every 4 months, but Mr. Greggs mentioned, 
what did you call it quick-start approach, of 50 to 100 
chemicals. I wonder what you think of that, you know, that 
there would be pretty universal agreement--I mean, correct me 
if I am wrong--of 50 to 100--I guess I am just talking about 
getting started and this quick-start approach as being one way 
to go.
    Mr. Owens. Well, Vice Chair Schakowsky, I think that that 
wouldn't necessarily be a bad place to start. I mean, we have 
actually been having a lot of conversations with the groups 
that Mr. Greggs represents here as well as with the American 
Chemistry Council and other industry groups and there are a lot 
of industry groups out there that do support reform of the 
Toxic Substances Control Act. Without having had a detailed 
conversation with them about it, I would say though that that 
should be a floor rather than a ceiling. It should be kind of 
the jumping-off point, not the be all and end all because you 
might have a situation in which you have low exposure because 
of a very narrow limited population. I think Alaska Natives 
were mentioned, maybe Native Americans, maybe a subset of 
children in a certain----
    Ms. Schakowsky. No, I know. You talked about criteria. All 
I'm saying is that December we will have the action plan and 
then four months later some chemicals will be announced. It 
just seems to me if there is a consensus in regulators, the 
scientific community and the industry on some of the most 
toxic, the worst of the worst, that that would be a place to 
get going right away.
    Mr. Owens. Congresswoman, the only thing I would say on 
that, I don't think there actually has been an agreement on the 
actual list. I think that is what we are talking about with the 
criteria. But there would be substantial overlaps I think 
between what we would think would be the worst of the worst and 
what some industry groups would think and some advocacy groups 
as well and so that would be a good place to start, and we have 
identified six chemical groups that we are going to be looking 
at for the first action plans. We will probably do four of 
those in December. Then the other ones will be carried over to 
early next year. We will have our public process where we will 
be getting information from NGOs and industry groups about what 
those worst-of-the-worst chemicals might be, to put them into 
our priority for action plans in the future.
    Ms. Schakowsky. OK. I guess all I want to say is that while 
obviously we have to process, and it is refreshing to say that 
science is going to drive this, we also, I think, you know, 
need to move as quickly as possible.
    Let me ask Mr. Greggs and Ms. Bosley, in terms of minimum 
data requirements, do you agree that the industry needs to be 
provide the information? Let me ask you that. But then also ask 
Mr. Owens if you think it ought to be mandatory to require that 
data.
    Mr. Greggs. Thank you, ma'am. We believe that EPA should 
have sufficient data not only just to make priority decisions 
but later as they do safety assessments and make decisions 
about risk and decisions about risk management, so we think 
that that is very important. As I testified today, the first 
thing to do is, let us identify the priority chemicals. We 
believe that there is substantial information, especially for 
this quick start using the criteria that I described where we 
could get started quickly. We believe that industry will have a 
significant role in that, unlike the action plan that EPA is 
starting now. Under our idea, the belief is that the 
development and assembly of that data, really the burden of 
that would be transferred to industry, industry putting that 
together and then providing it to the EPA to make the safety 
decision.
    Ms. Bosley. I might add that industry isn't really sure 
what data EPA would like for a priority one, two, three, four 
or five chemistry. If there was a base set identified, industry 
could certainly provide as much data as it can.
    Ms. Schakowsky. Mr. Owens, do you need the authority to 
require industry to provide the data?
    Mr. Owens. Congresswoman, yes, we do. That has been one of 
the challenges with the ChAMP program, with the heralding it 
has received here this morning by Ms. Bosley, that not all 
companies participated and not all companies generated the data 
and not all companies provided it, and without a mandatory 
requirement that the data be produced in the first place and 
then be provided to EPA, we will never get where we need to be 
in that regard.
    Ms. Schakowsky. Thank you. I appreciate everyone's 
testimony. Dr. Ditz, though I didn't ask you, I appreciate it.
    Mr. Rush. The Chair recognizes now Mr. Scalise for 5 
minutes.
    Mr. Scalise. I thank the chairman.
    Mr. Sampson, in the CDC Third Report from July 2005, it 
stated that for many environmental chemicals we need more 
research to assess health risks from different blood or urine 
levels. The results shown in the Third Report should help 
prioritize and foster research on human health risks that 
result from exposure to environmental chemicals but the 
presence of a chemical does not imply disease. The levels or 
concentrations of the chemical are more important determinates 
of the relation to disease when established in appropriate 
research studies than the detection or presence of a chemical. 
Does CDC still stand behind that statement?
    Mr. Sampson. Yes, sir, that is a very good question. We do. 
Would you like me to just explain?
    Mr. Scalise. Sure.
    Mr. Sampson. Typically what we do in our surveys are that 
we measure this cross-section of the U.S. population, several 
thousand samples, and that is in the Third Report that you are 
talking about, and what has happened since the beginning of 
these reports, when we identify a chemical in a large 
percentage of the population, that typically will spur a lot of 
research in that area but we are very careful not to say that 
this chemical by its presence is causing harm. In most cases we 
just need additional information, and it is very important to 
mention that our ability to detect the chemicals in our surveys 
and in populations is exceeding the ability to actually 
determine whether health effects are occurring, and we think 
that is a very big area of research that is needed.
    Mr. Scalise. Thank you.
    Mr. Greggs, could you comment on the new REACH policy that 
is currently being implemented in Europe and if such a policy 
was implemented here in the United States, what would that mean 
for U.S. industry?
    Mr. Greggs. Sure. As you I am sure are aware, REACH is an 
extremely comprehensive policy that has been recently put into 
place in Europe, some would say overwhelming is a potential 
concern. I think our thought really is, is that others as well 
as those in Europe have looked at chemical policies as well, 
Canada, for instance, which was mentioned in some earlier 
comments. Our thought really is, is that we ought to take the 
best parts from REACH from Canada and look at what is 
appropriate in the United States, apply that in the United 
States so that we get the gold standard in the U.S. for the 
chemical management policy that we put in as part of TSCA 
modernization.
    Mr. Scalise. Thanks. And then some of the advocates of 
legislation recommended that we should have in the law some 
kind of list, an actual list of chemicals of concern. Now, some 
people suggest that rather than inform people, that list would 
end up being a blacklist and make it much more complicated for 
manufacturers and processors. Do you agree with having a list 
and what would be the impacts of that?
    Mr. Greggs. Thanks for that question. I testified today 
that in approaching this prioritization that it ought to have 
several key steps. It ought to be science based. It ought to 
take a risk kind of approach using hazard and exposure. The 
scientists at EPA should be involved in that and there ought to 
be public review and comment to make sure that EPA has all the 
relevant data to make the right decisions about what chemicals 
should go under further assessment. Our concern about a list of 
course is, is that, you know, sort of whose list, what 
criteria. And our thought really is, is that by providing EPA 
with direction on the criteria for which priorities ought to be 
selected, that that will result in the right selection of 
priorities and the efforts going into the highest-priority 
chemicals first.
    Mr. Scalise. Thanks.
    And then Ms. Bosley, if I can get your thoughts on both 
questions, on REACH as well as on the list.
    Ms. Bosley. I think REACH's main problem is, it is a 
comprehensive legislation but it does not prioritize. So a 
chemical that is being manufactured at 20 metric tons that is 
highly toxic will get the same data set and the same priority 
as a chemical that is being manufactured at 20 metric tons that 
has almost no hazard to it. So there was no risk prioritization 
with respect to REACH, and I think the impact of a worst-of-
the-worst list, those chemicals are fairly small and I think 
you just have to look at critical, strategic, national interest 
uses for those lists. I don't think it would overburden the 
industry to come out with a list.
    Mr. Scalise. That is all I have. I yield back.
    Mr. Rush. The Chair now recognizes Mr. Sarbanes for 5 
minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. On this issue of the 
data the industry has provided, Mr. Ditz, I am going to direct 
a number of questions to you. On a scale of one to ten, where 
would you peg the integrity and usefulness of the data that 
industry now is providing, I gather mostly on a voluntary 
basis, in terms of what would be useful for reviewing an agency 
in making decisions about safety and so forth?
    Mr. Ditz. Let me try to make sure I am answering the right 
question. You are asking one to ten on the integrity of the 
data that industry is providing by voluntary means. Is that 
right?
    Mr. Sarbanes. Yes, and then on the integrity in terms of 
whether they are trying to hide the ball, I mean just sort of 
how useful it is to the process of being able to get to the 
right answer.
    Mr. Ditz. Well, the voluntary programs have primarily asked 
industry for hazard data. That is data on the intrinsic 
property of a chemical, and that is part of what is needed for 
any kind of risk assessment. There isn't a corresponding 
information on the exposure of the chemical, so basically in 
terms of risk, it is a zero. We don't have the adequate 
information. EPA doesn't have it. Customers of the chemical 
industry don't have it. Investors don't have it. So it is not a 
fault of industry that they haven't given that. They didn't 
offer that. It wasn't asked of them in the voluntary program. 
But when I hear the comments in the hearing today about a risk-
based system, I just have to stop and say we don't have the 
information. The EPA doesn't have it, nobody has it, and that 
is why we are not protecting Americans and we are not 
protecting our industry from countries who have higher 
standards than our own.
    Mr. Sarbanes. And I assume that the REACH program is 
pulling all of that kind of information as part of its process, 
or not?
    Mr. Ditz. Well, REACH is trying. You know, there are 
shortcomings of the European approach, no doubt about it, but 
it is asking chemical producers to generate basic information 
on the nature of the chemical--does it cause cancer, does it 
accumulate in people, et cetera. And it is also asking 
companies how is that chemical used, is it put into consumer 
products, does it go into things which children are exposed to, 
what are the workplace exposures. Those two kinds of 
information have to come together before you can do any kind of 
a risk prioritization. So hats off to Europe for trying. The 
other say I would say about REACH is, no matter if you think it 
is, you know, misguided or overreaching or a lot of other 
descriptions have been attached to it, it will make our job in 
the United States a lot easier because the data on hazards will 
be on the Internet and the companies like Dow and Dupont who 
operate in the United States will not be hiding that 
information. It will be available for EPA and for CDC and for 
consumers and others. So frankly, we will benefit even if we 
don't lift a finger.
    Mr. Sarbanes. Let me ask you another question before my 
time runs out. First of all, I can see how seductive the 
conversation can become around the worst of the worst, which 
when you step back and think about it is a heck of a standard 
to start using. I mean, if you think of a spectrum, you would 
have chemicals that would be oK, you would have ones that would 
be bad, you would then have a universe that would be considered 
the worst, and then inside of that we seem to be spend a lot of 
time talking about the worst of the worst, but the danger is it 
will distract us from other parts of the spectrum that deserve 
I think an equal amount of attention for various reasons. Speak 
for a moment, because, you know, that matrix as well is quite 
seductive in advancing this notion of risk-based perspective 
and you start thinking, well, that red ball there, that red 
fiery ball down there in the bottom right-hand corner is really 
what we should be worrying about, but can you, Mr. Ditz, maybe 
give an example of a situation where you might not get to that 
part of the matrix but the inherent hazards associated with a 
particular chemical without maybe the corresponding high use of 
it would still suggest and call for taking steps to restrict 
its use.
    Mr. Ditz. Well, as I mentioned, when I refer to the worst 
of the worst, you are right, that is kind of the top of the 
pyramid of badness and it represents a very small number of the 
universe of chemicals but that is the place where we ought to 
be able to quickly reach agreement. That is not going to put 
workers out of jobs or put businesses to shut their doors. It 
does make sense to weed out dangerous things and that is 
exactly what a Toxic Substances Control Act should have been 
doing all these decades but it hasn't. So I really think is the 
kind of thing where there ought to be broad agreement. An 
example of a chemical where is it not broadly used, widely used 
but still has these properties, well, the POPs treaty that I 
mentioned, the Stockholm Convention on Persistent Organic 
Pollutants, is an international scientific process that leads 
to the identification and the naming of exactly those 
chemicals. They get on that list when more than 100 countries 
agree to put them there. So that is the kind of place where it 
shouldn't be hard for us to sign on and agree. It includes, for 
example, a couple of brominated flame retardants, chemicals 
which historically have been added to things like consumer 
products, computers, furniture, foam, that kind of thing, and 
actually even though TSCA didn't really allow EPA the legal 
muscle to do it, they still negotiated an agreement with the 
producers to stop making that stuff. So I guess you could say 
in some certain cases when the writing is on the wall, even the 
manufacturer will surrender and move on to a different product. 
Those are the kinds of things where reasonable people ought to 
be able to agree, and frankly, we have to give EPA that power 
if we are going to ratify the treaty so eventually we are going 
to come back to this question even for the narrow question of 
those worst-of-the-worst chemicals.
    Mr. Sarbanes. Thank you.
    Mr. Owens. Can I just offer just a quick additional factor, 
Congressman Sarbanes? One point that I didn't get a chance to 
bring up in my oral testimony is covered in my written 
submission is the issue of the confidentiality of data that is 
submitted. Under the current law, the burden is on EPA to 
dispute a claim of confidential business information, CBI, as 
it is called, and on many occasions when the data submitted to 
us is claimed as confidential, over the years in fact taking 
the 80,000 figure just as a point, roughly one-fifth, about 
16,000 chemicals on that list have claimed the identity to be 
confidential. So of the 80,000 chemicals that are on the list, 
the names of them are claimed to be confidential, so you could 
actually see that the chemical might cause a hazard to people 
or risk to people or adverse health effects but you don't know 
what that chemical is by looking at the data that we actually 
might have in our database at EPA. And Administrator Jackson 
has directed us to do what we can do under existing TSCA to try 
to make more of that data available but we do need TSCA reform 
to address that issue as well so that the data can be made 
publicly available when it is provided.
    Mr. Sarbanes. That is like the opposite of a blacklist in a 
sense, right?
    Mr. Rush. The Chair now recognizes the gentlelady from 
Florida for 5 minutes.
    Mr. Castor. Thank you, Mr. Chairman, and thank you all very 
much for your testimony. I would like all of your opinions. 
Everyone is fairly united in their opinion that TSCA adopted 
originally in 1976, never updated, never modernized, is in need 
of reform. Does anyone disagree with that? So we have industry, 
we have environmental health experts, we have agency folks and 
legal experts, and this is generally the consensus across all 
of your fields, correct, that TSCA just hasn't lived up to what 
it was supposed to do to protect the environmental health, that 
it is in need of reform. So I find it interesting that there is 
some criticism right off the bat that this could harm jobs 
because I think you both said representing industry groups that 
this could be done, reform could be done without harming jobs 
and industry. Is that correct? Did I misstate your testimony?
    Ms. Bosley. No, that is true.
    Ms. Castor. And I think we all acknowledge, I have heard 
Administrator Jackson state how important it is to have a 
stakeholder process, and Mr. Owens, is that what is going on 
now? How important are stakeholders to reform efforts?
    Mr. Owens. Congresswoman, as I mentioned, the administrator 
unveiled a set of principles on behalf of the Obama 
Administration and those principles were developed in part 
based on a lot of conversations that we had at EPA, the 
administrator herself had with representatives of industry and 
various NGO groups, and as I also mentioned in testimony, as we 
go forward and develop these action plans in the future, we 
will be having conversations, we will have public meetings, we 
will have input from industry and public health groups as well 
as States and others that are looking at this issue and have 
things to add to the conversation.
    Ms. Castor. Is there any disagreement that you all know of 
over the initial approach to focus on the highest risk? Does 
anyone disagree? And Mr. Owens, that is the EPA's initial 
approach is to focus on the highest-risk chemicals in our 
environment that have the greatest threat to the health of our 
families and children and our public? Is that the----
    Mr. Owens. That is correct.
    Ms. Castor. So no one disagrees with that approach? How do 
we----
    Mr. Ditz. Could I add to it, though?
    Ms. Castor. Yes, sir.
    Mr. Ditz. It is one question, what should EPA do now with 
the law we have got, and they might as well start kind of where 
the streetlight is on, you know, where they already have 
information about chemicals that are posing risk to humans, 
yes. On the legislative side, on fixing TSCA, it is also 
necessary that we fix the basic structure of this approach, 
which means information shouldn't be hidden under rocks or in 
the dark, it should be out in the open and that should be the 
responsibility of business. I think that is also necessary as 
well as starting with where we know the problems already lie.
    Ms. Castor. And then Dr. Sampson, how do we ensure that all 
of the great medical research that the taxpayers are paying for 
is incorporated into such a legislative process, for example, 
the study that you mentioned, the very broad-based, 
comprehensive study of pregnant women and children and 
following the health data for many years?
    Mr. Sampson. We actually think it could be used as a very 
good mechanism for both setting the priorities but also looking 
at priority chemicals in the population over time, and one of 
the advantages of seeing it in people, it actually is how you 
are exposed from all sources, be it food, water, air or 
whatever. So if it is getting into people and we are detecting 
it, we can basically look at priority chemicals if there are 
regulations that are enacted, we will see those levels drop, or 
if new chemicals are introduced, they could appear through 
biomonitoring.
    Ms. Castor. Mr. Owens, you will be actively looking for 
ways through the modernization of TSCA to incorporate all of 
the terrific medical research that is available?
    Mr. Owens. Absolutely. As I mentioned, we are already 
working closely with CDC as well as other federal agencies in 
looking at different substances and making sure that we are 
coordinating our activities as well and we have our own 
internal research group at our Office of Research and 
Development that are working on these issues as well.
    Ms. Castor. Thank you. I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from Utah 
for 5 minutes.
    Mr. Matheson. Thank you, Mr. Chairman.
    Mr. Greggs and Ms. Bosley, is TSCA is reauthorized and 
reformed, how can Congress best balance necessary changes to 
the current program while still providing for appropriate cost-
benefit analysis so that various players can make good 
decisions regarding which chemicals to use and not use?
    Ms. Bosley. I can say that a definition of their safety 
standard would be a good first place to start, also, 
prioritization of high-risk chemicals. I think that 
establishing a data set for different priorities of chemicals 
is very important and that data set should include that cost-
benefit analysis.
    Mr. Matheson. Do you have anything to add to that?
    Mr. Greggs. You are asking me, sir?
    Mr. Matheson. Do you have anything to add to that?
    Mr. Greggs. Yes, the one thought I have on this is that, 
you know, you asked about risk-benefit. In current TSCA, I 
think it has been described in previous hearings where the 
safety determination is combined with risk-benefit analysis, 
and I think going forward one of the things that we really 
think is, is that chemicals ought to be looked at and 
determined whether or not they are safe for their intended uses 
and then separately risk management decisions made about how 
and when those--what kind of actions should be taken to make 
sure that those have been shown not to be safe can be taken.
    Mr. Matheson. Another question I would ask, and Dr. 
Sampson, if you can answer this first but others can chime in 
too, CDC currently runs the national biomonitoring program. It 
has produced a number of reports. Does the EPA or does the 
private sector have access to the data from these reports?
    Mr. Sampson. Absolutely. After we have finished our 
measurements, it goes back to the National Center for Health 
Statistics and they actually put it online so everybody has 
access to it, and then our scientists as well as other 
scientists can begin working on it. EPA as other agencies are 
using it actually incorporate our data very heavily into their 
report on the Nation in terms of chemical exposures. Other 
programs such as the Office of Smoking and Health use our data. 
We look for tobacco products in addition. But it is used quite 
extensively now in terms of----
    Mr. Matheson. Do you have suggestions for improvements that 
could take place with the program at the CDC?
    Mr. Sampson. In terms of an expansion, from what I 
understand today, if there was to be a large expansion of our 
present activities, first of all, I think the science of 
biomonitoring would have to be improved and increased. During 
the last decade instrumentation has come out that has just 
revolutionized our ability to measure chemicals in people and I 
think that will continue so that more chemicals can be measured 
in smaller and smaller amounts of blood. The amount of sample 
you get from a person is a very big deal. Getting more than a 
Vacutainer tube is a fairly big deal, so we have to do all of 
our measurements in very small amounts of bodily fluids. And 
then the second area is, if you are interested in any type of 
infrastructure outside of the existing ones, and the best one 
is the National Health and Nutrition Examination Survey, that 
would require an infrastructure to do that, and since it is 
human samples you have to go through institutional review 
boards and very detailed approval, so just saying we want to 
start looking at a new matrix--cord blood has been proposed--
actually will have some hurdles and challenges associated with 
that.
    I think, as I mentioned a little while ago, our ability to 
measure chemicals is ahead of our ability to interpret those in 
terms of health effects so more research is needed, and 
finally, if it was to be greatly expanded, we have most of the 
scientists that are doing this in our current laboratory, and 
there will be a very large workforce demand, I think if you 
expand it hundreds more and thousands of chemicals, it would be 
a challenge just in terms of training a slightly larger 
workforce.
    Mr. Matheson. Thanks, Mr. Chairman. I yield back.
    Mr. Rush. The Chair now has a request, and without 
objection, Mr. Markey, the chairman of the Subcommittee on 
Energy and the Environment is recognized for 5 minutes for the 
purpose of questioning the panel. Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much, and thank 
you for giving me this opportunity. Thank you for your 
leadership and focusing on these issues of risk posed by toxic 
substances in our environment.
    I would like to ask Mr. Ditz, Mr. Greggs and Ms. Bosley 
this question. Are there chemicals that you would identify that 
are already known to be so dangerous that they should be phased 
out or subject to other action to reduce human exposure 
immediately? Mr. Ditz?
    Mr. Ditz. Thank you, Congressman. It is possible that I 
partially answered this question earlier before you joined us, 
but the answer is yes, and the sort of colloquial phrase I use 
is the worst-of-the-worst chemicals, those which are by their 
very nature inclined to last in the environment for months or 
years.
    Mr. Markey. Could you name some, please?
    Mr. Ditz. OK. Well, for example, brominated diphenol 
ethers. It doesn't exactly--it is not a household name but 
these are constituents that are added to plastic so they don't 
burst into flames. That is a very useful property but there are 
safer substances out there, and when there are such safer 
substances, it makes sense that we would not allow something 
which is inherently unsafe.
    Mr. Markey. Are there others that come to mind?
    Mr. Ditz. Well, I think there are a family of fluorinated 
compounds which are also almost infinitely persistent that last 
for a very long time in the environment. It has been the focus 
of some Congressional attention already. There are of course 
uses, not necessarily the full ban of a chemical, but uses of a 
chemical which might deserve to be phased out. I am thinking, 
of course, 20 years ago the attempted and failed restriction on 
forms of asbestos in certain products.
    Mr. Markey. Mr. Greggs, are there any that you would ban 
immediately, phase out immediately?
    Mr. Greggs. Thank you, Mr. Markey. I testified about 
prioritization. One of the things I talked about was a quick-
start effort that we believe that EPA could quickly undertake 
to identify 50 to 100 chemicals that met certain criteria and 
that could quickly be moved into assessment and decisions where 
there are safety issues into risk management.
    Mr. Markey. Are there any that you have already concluded 
from previous studies that should be phased out immediately?
    Mr. Greggs. Sir, there are a number of chemicals, you know, 
that have been phased out out of a lot of uses----
    Mr. Markey. No, I mean any right now that not have been 
phased out. Can you just name a few that you think should be 
phased out?
    Mr. Greggs. No, I don't have any I would name but I think 
these are decisions really that should be made by EPA 
scientists looking at the data that is supplied by industry and 
other stakeholders.
    Mr. Markey. So you are saying there are not some that don't 
need additional study, that they all need additional study?
    Mr. Greggs. No, sir. You know, I think that there is 
substantial data that is available. We also understand through 
REACH, which Mr. Scalise asked about, there will be substantial 
additional data, as Dr. Ditz indicated.
    Mr. Markey. Well, let me go to you, Ms. Bosley. Any that 
you would phase out or subject to----
    Ms. Bosley. No, not at this point, not phase out. I would 
point to a chemical's use and its exposure criteria. For 
instance, if you were to take a chemical like phosgene, it is a 
pretty bad chemical that killed tens of thousands of people in 
World War I and II yet you couldn't make Crixivan, an AIDS 
drug, today or breast-cancer drugs today or frankly this 
tabletop without phosgene, and there has not been a phosgene 
death in the United States for 30 years.
    Mr. Markey. So let me ask the three of you yes or no, do 
you believe that the EPA should look at the chemicals that are 
known to cause health problems and at the chemicals that are 
already known to be found in humans immediately, yes or no?
    Mr. Greggs. Yes, sir, I testified to that.
    Mr. Markey. Ms. Bosley?
    Ms. Bosley. I think that those chemicals should be 
prioritized and EPA should take a closer look at them, yes.
    Mr. Ditz. Yes.
    Mr. Markey. And unlike many chemicals where one studies 
acute health impacts associated with high-dose exposure, there 
are disruptors that impact health after exposures to low doses 
over sustained periods of time. Can these disruptors be 
categorized using the same risk assessment as other toxic 
chemicals even though their characterizations are very 
different? Mr. Owens, can you answer that, please?
    Mr. Owens. Congressman, let me answer it this way. I think 
there are some differences there because of the issue related 
to low dosage. I think that is a very important thing for our 
agency to be looking at because there will be some chemicals, 
there are some chemicals that can have harmful effects in low 
dosage either because of the effect themselves or because they 
do bioaccumulate and have a cumulative effect when compared 
with other chemicals or other chemicals of the same type of 
grouping you can see not just linear but sometimes 
exponentially increases and effects and studies based on 
cumulative exposures, so that is one of the issues that we 
really have to take a look at.
    Mr. Markey. So do you believe that the EPA's endocrine 
disruptor screening program does need modernization like the 
rest of the EPA's toxic chemical safety authority does?
    Mr. Owens. Congressman, as you know, we finally got the 
first test orders issued and that program was mandated by 
Congress in 1996. Finally a few weeks ago in October we were 
able to get the first test orders. The assays were developed 
and released earlier this year. The first test orders went out 
in October. There is a lot of catching up to be done in that 
program and we are going to be working as hard as we can. 
Certainly Administrator Jackson has made that a priority for my 
office to get the endocrine disruptor screening program on 
track and move forward. So we will be looking very closely at 
the data that we receive from those test orders. They are 
focused right now on pesticides. There is a list of 67 
pesticides that were identified and we will be investigating 
and reviewing the data, as I said, that we get in from the test 
orders that we have issued and that we will be issuing going 
forward to address those 67.
    Mr. Markey. Thank you very much. What about non-pesticides?
    Mr. Owens. Congressman, that is an issue that we are 
clearly looking very closely at as well. I know there is 
language in the health report from earlier this year talking 
about the need for us to look at non-pesticides. That is a 
topic of very serious conversation within the agency. We have 
to address what is on our screen first, which is the list of 67 
pesticides, but clearly that is--there is a great deal of 
concern about the endocrine-disrupting impact of non-pesticide 
chemicals and we certainly want to work very closely with 
members of this committee and other groups that have expressed 
concern about those chemicals and talk about how we can go 
forward on it, so we are very much aware of the interest of the 
House in that.
    Mr. Markey. Well, the chairman is moving forward on the 
overhaul of TSCA and I think this non-pesticide issue is 
something that you should stay close to us on so that we can 
assure that we include everything that needs to be----
    Mr. Rush. The Chair will ask the witnesses if they could 
possibly stay for a second round of questioning. We will give 
each member 2 minutes for questioning. And the Chair recognizes 
himself for 2 minutes.
    The CDC has stated that, and I quote, ``The measurement of 
an environmental chemical in a person's blood or urine does not 
by itself mean the chemical caused the disease.'' Dr. Sampson, 
the question is, can't biomonitoring evaluations be used to 
show a higher likelihood than not that a potential chemical is 
the cause of a certain disease? For example, a recent AMA 
Journal study tied higher blood BPA levels to cardiovascular 
diseases, diabetes and liver enzyme conditions, so the question 
again to you is, can't biomonitoring evaluations be used?
    Mr. Sampson. Mr. Chairman, that is a very excellent 
question. What we do--that publication came out of using our 
data which is collected on the HANES participants as well as 
medical information. As I explained, when people go through the 
survey, they actually do a complete physical. They collect 
1,000 pieces of questionnaire information and then they donate 
blood and urine. Some of the other tests have to do with 
cardiovascular disease and diabetes and so forth, so 
investigators do have the ability to link our exposure data 
with disease type of data. Now, our ability to detect chemicals 
has exceeded the current ability to interpret it in those of 
those health effects so we are trying to work with other 
federal agencies like the National Institutes for Environmental 
Health Sciences and so forth to look at that problem more 
closely. The chemical you're referring to is bisphenol A and I 
believe NIEHS has just introduced some money from the stimulus 
package to look at more health effect studies associated with 
exposure to bisphenol A.
    Mr. Rush. Thank you. The Chair recognizes the ranking 
member.
    Mr. Radanovich. Thank you, Mr. Chairman.
    A question for Mr. Owens, if I may. I want to go back to 
the Montebello agreement and how the Administration plans to 
carry out the Montebello agreement without ChAMP. If you could 
respond rather quickly. I am sorry, I have only got 2 minutes.
    Mr. Owens. Well, I think certainly if we get TSCA reform, 
we will be able to have a lot more data on those chemicals and 
to be able to address it, but in the interim we will be using 
the data we have. We will be asking continually for data from 
industry, but again, our ability to get that data is based on 
the willingness of industry to provide it, and some of them 
have not.
    Mr. Radanovich. Thank you.
    My last question is for Mr. Greggs and Ms. Bosley. Mr. 
Greggs, I appreciated your poster over there that advocated the 
risk-based prioritization matrix and having that risk-based 
approach in analyzing these 80,000 chemicals that are out 
there. Can you tell me--and Mr. Ditz had advocated three 
priorities: identifying the worst of the worst, going up 
against a specific standard and industry providing a lot of the 
research and information, if I got that right. But how would 
this type of requirement without making it a risk-based 
approach affect your industries, and, you know, specifically to 
the cost of the regulations potentially that could be imposed?
    Mr. Greggs. I think what I heard Dr. Ditz talk about, I 
heard him talk about the need to have hazard and exposure data 
and some concerns that he expressed about the unavailability of 
some of that data. I think, you know, sort of two thoughts on 
this very quickly. One is that under REACH, over 90 percent of 
the chemicals reported to EPA just a couple years ago as being 
in commerce in the United States are pre-registered under REACH 
and most of that data is going to be submitted next year as 
part of the REACH deadlines. So on the hazard data, I think 
that there is going to be a resource there and I think EPA and 
others ought to be looking for how can we make that data 
available in the United States.
    The second part is on the use and exposure data. Again, EPA 
started a system for collecting use and exposure data in 2006. 
In doing that, they asked the chemical manufacturers about 
where were chemicals being used. Of course, some of that 
information is known to the manufacturers but not all of that 
information and so the information that EPA presently has is 
incomplete. What CSPA, GMA and SDA have talked about is an idea 
for users providing chemical use information as part of the 
periodic inventory update that EPA does. That way we will have 
more complete use and exposure data to be able to both do 
prioritization but as well to target the assessments that need 
to be done on chemicals.
    Mr. Radanovich. Ms. Bosley?
    Ms. Bosley. As I mentioned, I think that EPA's ability to 
ask for data from industry should be enhanced. The data that 
industry has isn't hidden under any rocks. It informs 
everything that industry does from their material safety data 
sheets to their safety and handling information to general 
public knowledge, and for EPA to be able to ask for that data 
should be enhanced. I also agree that EPA has exposure data 
based on the 2005 inventory update and that exposure data 
should be made public. I don't think the IUR is yet public in 
2005.
    Mr. Radanovich. Thank you, and thank you, Mr. Chairman.
    Mr. Rush. By unanimous consent, the gentleman from 
Massachusetts is recognized for 2 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Ms. Bosley, your testimony stated that we should embrace 
TSCA mechanisms that have worked well like the New Chemicals 
Program where EPA has successfully reviewed some 35,000 new 
chemicals since 1979 without impeding innovation. But according 
to EPA, 67 percent of pre-manufacture notices received by EPA 
under this program contain no hazard data on health or the 
environment and 85 percent contain no health data at all. If 
the goal is to determine the health and environment impacts of 
a chemical, how can this program possibly be characterized as 
successful if the data isn't even provided to make that 
determination?
    Ms. Bosley. I can say that EPA has methods they have 
pioneered, the notion of structure activity relationships such 
that if data is not provided, they look at the chemical and 
take the most conservative approach and they decide their 
regulation of that chemical based on that conservative approach 
along with the pre-manufacture notice process always is needed, 
process information, identification information----
    Mr. Markey. But how do they make----
    Ms. Bosley [continuing]. Exposure and use information.
    Mr. Markey. How do they make a decision if there is no 
health data or environmental data? How do they make a decision?
    Ms. Bosley. EPA has a tremendous amount of health and 
environmental information and they use that structure activity 
relationship----
    Mr. Markey. But if it is not provided by the corporation to 
them, how can they possibly be flying blind? What is the 
empirical basis that is used to make a decision if it is not 
even part of their process?
    Ms. Bosley. They look at similar chemicals that have health 
and safety data available and that is the structure activity 
program that EPA has pioneered.
    Mr. Markey. But then it sounds like EPA becomes kind of a 
chemical Carnac where they hold up the envelope, you know, 
without knowing the answer. They are somehow supposed to know 
what the answer is inside without ever having reviewed it, then 
they give the answer, huh? So that can't be a process that 
really can work for the long term.
    Ms. Bosley. Well, I think it has worked successfully over 
the last 30 years.
    Mr. Markey. Well, I think that is debatable. If they didn't 
have the health and environment data, then--Mr. Owens, would 
you like to briefly respond to that?
    Mr. Owens. Yes. Thank you, Congressman. I may have said 
this when you were out of the room but one issue we do have is 
the issue of confidential business information and the claiming 
of certain types of data, not necessarily health and safety 
data. So we get data that is claimed as CBI we have but we 
can't make public and there is a resource issue here in terms 
of our ability to review all the information that is coming in. 
We have a 90-day window when data comes in to EPA to make a 
determination under the new chemical program that we have and 
if the data isn't provided, we have to go back and show a 
reason why we think that data needs to be provided and even 
then there is no requirement that it actually be generated or 
created in the first instance and so there are a number of 
handicaps and obstacles that we faced, and I think while it 
feels nice sitting over here as a new person at EPA to hear the 
agency being praised by someone on the outside, you know, it 
just ain't so. That is really not what reality is in terms of 
what the agency has been able to do over the years.
    Mr. Markey. I thank you, Mr. Owens. I wrote to OMB to 
express my concerns that their approval for your endocrine 
disruptor rules appear to be limiting your ability to require 
the testing needed to determine the health risks of endocrine 
disruptors. I just received a response to my letter from OMB 
Director Peter Orszag last night which indicated that OMB was 
not in any way seeking to limit EPA's ability to get the data 
it needed to determine the health effects of potential 
endocrine disruptors. Are you confident that EPA will have the 
ability to get the data needed in this area?
    Mr. Owens. Absolutely, Congressman. Administrator Cass 
Sunstein, who is the head of the Office of Information and 
Regulatory Affairs at OMB, and I have had a lot of 
conversations about this and it is certainly my understanding 
based on our conversations with Mr. Sunstein that OMB's terms 
of clearance for the EDSP information collection request in no 
way limits our discretion in any way through the program so it 
sounds as though the letter you received is consistent with 
that.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman. The Chair thanks 
all of the witnesses for the time that you have so graciously 
shared with us and I want to commend you for your testimony. It 
has been very enlightening and illuminating for us, and again, 
the Chair thanks the witnesses for participating.
    The Chair has a unanimous-consent request with respect to 
two items that were submitted to the subcommittee for entry 
into the record of today's hearing. One is the testimony from 
the Humane Society, the Physicians Committee for Responsible 
Medicine, and the People for the Ethical Treatment of Animals, 
and the second UC request is written testimony from the 
National Petrochemical and Refiners Association. Hearing no 
objection, the unanimous consent is approved.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. Now the Chair must bring this hearing to a 
conclusion. The Subcommittee is hereby adjourned.
    [Whereupon, at 1:15 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:] 

    [GRAPHIC] [TIFF OMITTED] T4851A.040
    
    [GRAPHIC] [TIFF OMITTED] T4851A.041
    
    [GRAPHIC] [TIFF OMITTED] T4851A.042
    
    [GRAPHIC] [TIFF OMITTED] T4851A.043
    
    [GRAPHIC] [TIFF OMITTED] T4851A.044
    
    [GRAPHIC] [TIFF OMITTED] T4851A.045
    
    [GRAPHIC] [TIFF OMITTED] T4851A.046
    
    [GRAPHIC] [TIFF OMITTED] T4851A.047
    
    [GRAPHIC] [TIFF OMITTED] T4851A.048
    
    [GRAPHIC] [TIFF OMITTED] T4851A.049
    
    [GRAPHIC] [TIFF OMITTED] T4851A.050
    
    [GRAPHIC] [TIFF OMITTED] T4851A.051
    
    [GRAPHIC] [TIFF OMITTED] T4851A.052
    
    [GRAPHIC] [TIFF OMITTED] T4851A.053
    
    [GRAPHIC] [TIFF OMITTED] T4851A.054
    
    [GRAPHIC] [TIFF OMITTED] T4851A.055
    
    [GRAPHIC] [TIFF OMITTED] T4851A.056
    
    [GRAPHIC] [TIFF OMITTED] T4851A.057
    
    [GRAPHIC] [TIFF OMITTED] T4851A.058
    
    [GRAPHIC] [TIFF OMITTED] T4851A.059
    
    [GRAPHIC] [TIFF OMITTED] T4851A.060
    
    [GRAPHIC] [TIFF OMITTED] T4851A.061
    
    [GRAPHIC] [TIFF OMITTED] T4851A.062
    
    [GRAPHIC] [TIFF OMITTED] T4851A.063
    
    [GRAPHIC] [TIFF OMITTED] T4851A.064
    
    [GRAPHIC] [TIFF OMITTED] T4851A.065
    
    [GRAPHIC] [TIFF OMITTED] T4851A.066
    
    [GRAPHIC] [TIFF OMITTED] T4851A.067
    
    [GRAPHIC] [TIFF OMITTED] T4851A.068
    
    [GRAPHIC] [TIFF OMITTED] T4851A.069
    
    [GRAPHIC] [TIFF OMITTED] T4851A.070
    
    [GRAPHIC] [TIFF OMITTED] T4851A.071
    
    [GRAPHIC] [TIFF OMITTED] T4851A.072
    
    [GRAPHIC] [TIFF OMITTED] T4851A.073
    
    [GRAPHIC] [TIFF OMITTED] T4851A.074
    
    [GRAPHIC] [TIFF OMITTED] T4851A.075
    
    [GRAPHIC] [TIFF OMITTED] T4851A.076
    
    [GRAPHIC] [TIFF OMITTED] T4851A.077
    
    [GRAPHIC] [TIFF OMITTED] T4851A.078
    
    [GRAPHIC] [TIFF OMITTED] T4851A.079
    
    [GRAPHIC] [TIFF OMITTED] T4851A.080
    
    [GRAPHIC] [TIFF OMITTED] T4851A.081
    
    [GRAPHIC] [TIFF OMITTED] T4851A.082
    
    [GRAPHIC] [TIFF OMITTED] T4851A.083
    
    [GRAPHIC] [TIFF OMITTED] T4851A.084
    
    [GRAPHIC] [TIFF OMITTED] T4851A.085
    
    [GRAPHIC] [TIFF OMITTED] T4851A.086
    
    [GRAPHIC] [TIFF OMITTED] T4851A.087
    
    [GRAPHIC] [TIFF OMITTED] T4851A.088
    
    [GRAPHIC] [TIFF OMITTED] T4851A.089
    
    [GRAPHIC] [TIFF OMITTED] T4851A.090
    
    [GRAPHIC] [TIFF OMITTED] T4851A.091
    
    [GRAPHIC] [TIFF OMITTED] T4851A.092
    
    [GRAPHIC] [TIFF OMITTED] T4851A.093
    
    [GRAPHIC] [TIFF OMITTED] T4851A.094
    
    [GRAPHIC] [TIFF OMITTED] T4851A.095
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
